<html>
<title> - WILDLIFE POACHING</title>
<body><pre>[Senate Hearing 114-797]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-797

                           WILDLIFE POACHING

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON AFRICA AND
                          GLOBAL HEALTH POLICY

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                   U.S. GOVERNMENT PUBLISHING OFFICE                    
29-843 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ee899e81ae8d9b9d9a868b829ec08d8183c0">[email&#160;protected]</a>      




                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                 Lester Munson, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
                    John Dutton, Chief Clerk        

                         ------------          

                   SUBCOMMITTEE ON AFRICA AND        
                      GLOBAL HEALTH POLICY        

                 JEFF FLAKE, Arizona, Chairman        

JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  CHRISTOPHER A. COONS, Delaware
JOHN BARRASSO, Wyoming               TOM UDALL, New Mexico
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hon. Jeff Flake, U.S. Senator From Arizona.......................     1
Ian Saunders, Chief Operations Officer, The Tsavo Trust, 
  Washington, DC.................................................     2
    Prepared Statement...........................................     5
Jean Marc Froment, Conservation Director, African Parks, 
  Bryanston,
  Johannesburg, South Africa.....................................     7
    Prepared Statement...........................................     9
Dr. George Wittemyer, Chairman, Scientific Board for Save the 
  Elephants, Fort Collins, CO....................................    12
    Prepared Statement...........................................    15
Ginette Hemley, Senior Vice President, Wildlife Conservation, 
  World Wildlife Fund, Washington, DC............................    22
    Prepared Statement...........................................    24
Hon. Ed Markey, U.S. Senator From Massachusetts..................    40

              Additional Material Submitted for the Record

Responses of Dr. George Wittemyer to Questions Submitted by 
  Senator
  Tom Udall......................................................    46

                                 (iii)

  

 
                           WILDLIFE POACHING

                              ----------                              


                        THURSDAY, JULY 16, 2015

                               U.S. Senate,
   Subcommittee on Africa and Global Health Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake 
(chairman of the subcommittee) presiding.
    Present: Senators Flake, Markey, and Udall.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing on the Senate Foreign Relations 
Subcommittee on Africa and Global Health Policy will come to 
order.
    I appreciate the attendance of certainly the witnesses and 
all others here. I am glad to have Governor Adato from Kenya 
here as well. Thank you for coming.
    I would apologize from the outset. We are in the middle of 
votes right now. I voted on the first one and will wait, as 
long as I can, to go and vote on the second one. Hopefully, we 
can get as much testimony in as possible. And Ranking Member 
Markey is in a meeting and voting, and he will be here as soon 
as he can as well. So given our short timeframe this afternoon, 
we thought it best to get started. So thank you for your 
indulgence there and apologize for the lack of members here. 
They will likely trickle in as we go along and votes end.
    But today we are examining the wildlife poaching in sub-
Saharan Africa. Illegal wildlife trade is one of the most 
lucrative illicit practices in the world, generating between $8 
billion and $10 billion each year. Wildlife trafficking has 
been especially stark in sub-Saharan Africa where poacher 
activity is just decimating African elephant and rhino 
populations, two of the big five animals that provide a 
significant draw for visitors to southern and east Africa in 
particular.
    The poaching crisis, which is driven by demand from outside 
of the continent hampers Arizona--I am sorry. Arizona. I slip 
every once in a while. Africa, my two loves--hampers Africa's 
economic growth potential, threatening good governance by 
fueling corruption and undermining security. The social impact 
of trafficking is also significant at the local level, and we 
will hear about some of that today, where the practice 
threatens jobs in game reserves and the communities that 
surround them.
    Poaching has also had ramifications on the security front. 
Rangers and other law enforcement officials have been killed at 
the hands of poachers, and the need to address wildlife 
trafficking draws resources away from other much needed 
security efforts.
    Today's hearing will focus on efforts to address poaching 
at the source. We are also going to hear our witnesses' 
thoughts on wildlife trafficking legislation that has been 
introduced in Congress. Each of our witnesses today brings a 
unique perspective to the issue at hand. I have no doubt that 
it will contribute greatly to the debate that we are having 
here. I thank you for your time and for sharing your expertise. 
I enjoyed reading the testimony last night and look forward to 
the testimony here today.
    We will go ahead and introduce and then go from there.
    Mr. Ian Saunders, cofounder and chief operating officer of 
the Kenyan conservation NGO, Tsavo Trust. In this role, he 
oversees the implementation of stabilization through 
conservation strategy. Previously Mr. Saunders worked with 
Africa's largest private antipoaching unit at that time in 
Tanzania. In addition, he previously served as the senior 
security advisor to the United Nations in Afghanistan.
    Mr. Jean Marc Froment currently is conservation director at 
African Parks, a conservation management organization with 
parks in eight African countries. Mr. Froment has advanced 
conservation efforts in the DRC's Garamba National Park and, as 
an independent expert, has also worked as a manager in national 
parks and protected areas in Cameroon and the Congo.
    George Wittemyer is the chairman of the Scientific Board 
for Save the Elephants, as well as assistant professor of fish, 
wildlife, and conservation biology at Colorado State 
University. As a Fulbright fellow in 1997, Dr. Wittemyer 
founded a long-term Samburu elephant monitoring project in 
northern Kenya. Since that, Dr. Wittemyer's more than 40 peer-
reviewed articles have received over 2,000 academic citations. 
I found that what is going on there with the testimony quite 
interesting.
    Ms. Ginette Hemley is a senior vice president for 
Conservation at the World Wildlife Fund. In this role, she 
tracks execution of World Wildlife Fund's local to global 
strategy to conserve ecologically important places and leads 
conservation advocacy campaigns. She also chairs the WWF 
network's Global Conservation Committee, which sets strategy 
and policy for WWF's international conservation program.
    Again, thank you all for being here today. Your full 
testimony will be, without objection, entered into the record. 
So if you could please keep your remarks to around 5 minutes, 
that would help us get through the testimony and to questions.
    With that, the committee recognizes Mr. Saunders.

STATEMENT OF IAN SAUNDERS, CHIEF OPERATIONS OFFICER, THE TSAVO 
                     TRUST, WASHINGTON, DC

    Mr. Saunders. Thank you, Chairman Flake, Ranking Member 
Markey, and distinguished members of the committee. Thank you 
for inviting me to testify at this important hearing on 
wildlife poaching. And I appear before you in my capacity as 
chief operations officer and cofounder of the Tsavo Trust. I 
request that my full statement be included in the record.
    My family have lived and worked in Kenya and Tanzania for 
the last three generations, and I have served in various 
security, governance, wildlife management, and sustainable 
development positions over the last 30 years, including with 
the British Army, the United Nations in both security and 
counterterrorism capacity, and I am a trained ecologist. During 
the early to mid-1990s, I recruited, trained, and operated what 
was at the time the largest private antipoaching unit in 
Africa, working closely with the Tanzania Wildlife Division.
    Tsavo Trust's mission in Kenya is to secure strategic areas 
in the Greater Tsavo Area for the benefit of wildlife and 
people through innovation, partnership, and stewardship. Tsavo 
Trust is focused on building the capacity of communities to 
manage their own land, wildlife, and natural resources and to 
implement their own enterprises and to develop their own 
revenue, infrastructure, and community governance frameworks. 
We call this our Stabilization through Conservation approach.
    At 16,000 square miles, or twice the size of the State of 
Massachusetts, the iconic Tsavo landscape is Kenya's largest 
and most important intact natural ecosystem. The Greater Tsavo 
ecosystem is located in the southeast part of Kenya and forms 
part of Tsavo-Amboseli-Chyulu Hills ecosystem and hosts Kenya's 
largest elephant population at approximately 12,000 elephants. 
Its Chyulu Hills catchment area feeds Mombasa, Kenya's second 
city, with most of its fresh water. Over the past 10 years, 
populations of elephants have dropped by 50 percent in Africa 
primarily due to wildlife poaching.
    Tsavo occupies a strategically pivotal space between the 
coastal belt and the interior of Kenya. The Tsavo region is a 
potential security buffer against destabilizing forces seeking 
to infiltrate deeper into East Africa through Kenya's coastal 
entry points and from Somalia. But this critical landscape is 
now at risk from a complex, interrelated array of threats, 
including wildlife trafficking, human-wildlife conflict, small 
arms proliferation, human poverty, biodiversity loss, 
transboundary organized crime, and even violent extremism.
    The poaching of wildlife threat presents a complex law 
enforcement and social challenge. Much of the illegal activity 
occurs or is initiated in a remote and expansive rural areas 
where wildlife and humans coexist, which is outside the Kenya 
Wildlife Service managed national parks. Most rural people in 
Tsavo view wildlife as a threat to their lives and livelihoods 
or competition for resources such as grazing, land, and water. 
They see few direct or indirect benefits from wildlife and, in 
the absence of other income opportunities, will resort to 
poaching on behalf of others as a form of employment.
    I believe the term ``wildlife management'' is a misnomer. 
Wildlife will prosper and natural resources will bring more 
equitable, more sustainable benefits if we as the dominant 
species can provide a conducive environment for both humans and 
wildlife. So, in essence, it is human management that we are 
addressing.
    In Kenya, as elsewhere across the world, the exposure to 
widely accessible modern communications and new media has given 
impoverished rural people a wider perspective and created new 
and high expectations, in some cases far beyond what is 
realistically achievable. In some areas, this has resulted in 
resentment, dissent, despondency, and even anger, which is an 
ideal environment for exploitation by extremists or organized 
illegal entities.
    So in response to this complex challenge faced by the Tsavo 
ecosystem, the Tsavo Trust is implementing its Stabilization 
through Conservation, or StabilCon, approach, which provides a 
holistic culturally aware and nature-based approach to 
undermining the spread of organized crime and reducing illegal 
wildlife trafficking. It helps curb radicalization through 
strengthening rural communities and protecting biodiversity 
while populating vulnerable spaces with robust community 
government systems.
    StabilCon utilizes conservation infrastructure not only to 
protect wildlife but also to help stabilize the human terrain, 
thereby supporting the national security effort and giving 
wildlife and the natural environment a much greater value than 
tourism dollars alone.
    In Tsavo, rural communities are the most important actors 
in countering wildlife crime and other illegal activities at 
source, but they will only have the ability and resolve to act 
against these destructive influences if they have the 
opportunity to prosper themselves and have realistic prospects 
for the future.
    StabilCon can bring stability to vulnerable regions from 
the inside out rather than the outside in. It does not seek to 
impose ownership or control over communities. It works 
alongside Tsavo's rural communities, the Kenya Wildlife 
Conservancies Association, the Kenya Wildlife Service, national 
government law enforcement agencies, local and international 
academic institutions and other partners delivering similar on-
the-ground development and conservation projects.
    StabilCon is readily exportable not only to other countries 
in Africa but also to other parts of the world where 
marginalized rural communities inhabit vulnerable and natural 
resource-rich environments. Any structured organization that 
can work in the rural space can implement StabilCon, including 
commercial businesses, faith-based institutions, local or 
national governments, community groups, NGO's, or civil-
military partnerships.
    StabilCon can play a key role in contributing to the 
existing and ongoing success of community conservancies in 
Kenya, particularly in currently under-represented areas. 
Community conservancies are nature reserves owned and managed 
by local rural communities with support from stewardship 
organizations when required. The areas are zoned to allow a 
range of sustainable and complementary land uses, such as 
cattle ranching. Conservancies have already proved successful 
in Mongolia, Namibia, and Kenya, based on the original concepts 
developed right here in the United States.
    Mr. Chairman, I thank you for this opportunity to appear 
before you today to discuss this important issue. I look 
forward to answering any questions the committee members may 
have.
    [The prepared statement of Mr. Saunders follows:]

                   Prepared Statement of Ian Saunders

    Chairman Flake, Ranking Member Markey, and distinguished members of 
the committee, thank you for inviting me to testify at this important 
hearing on wildlife poaching. I appear before you in my capacity as 
Chief Operations Officer and Founder of the Tsavo Trust. My family have 
lived and worked in Kenya and Tanzania for three generations. I have 
served in a various security, governance, wildlife management and 
sustainable development positions, including with the British Army and 
the United Nations in a security and counterterrorism capacity. During 
the 1990s I recruited, trained and managed what was at the time the 
largest private antipoaching unit in Africa, which worked closely with 
the Tanzania Wildlife Division.
    Tsavo Trust's mission in Kenya is to secure strategic areas in the 
Greater Tsavo Area for the benefit of wildlife and people, through 
innovation, partnership, and stewardship. Tsavo Trust is focused on 
building the capacity of communities to manage their own land, 
wildlife, and natural resources to implement their own enterprises and 
to develop their own revenue, infrastructure, and community governance 
frameworks. We call this stabilization through conservation or 
StabilCon.
    At 16,000 square miles or twice the size of the State of 
Massachusetts, the iconic Tsavo landscape is Kenya's largest and most 
important intact natural ecosystem.
    The Greater Tsavo ecosystem is located in the southeast part of 
Kenya and forms part of the Tsavo-Amboseli-Chyulu Hills ecosystem. 
Tsavo hosts Kenya's largest elephant population and its Chyulu Hills 
catchment area feeds Mombasa, Kenya's second city, with fresh water. It 
is estimated there are approximately 12,000 elephants in the Greater 
Tsavo Ecosystem--the largest population in Kenya. Over the past 10 
years, populations of elephants have dropped by 50 percent in Africa, 
primarily due to wildlife poaching.
    Tsavo occupies a strategically pivotal space between the important 
coastal belt and the interior of Kenya. It lies at a crossroads of 
cultures, religions, and perspectives. Importantly, the Tsavo region is 
a potential security buffer against destabilizing forces seeking to 
infiltrate deeper into East Africa through Kenya's coastal entry points 
and from Somalia. But this critical landscape is now at risk from 
complex interrelated threats including wildlife trafficking, human-
wildlife conflict, small arms proliferation, human poverty, 
biodiversity loss, transboundary organized crime and violent extremism.
  poaching and the challenges faced by communities in the tsavo region
    Poaching of wildlife has evolved into an illegal, organized 
commercial business, increasingly controlled by transnational criminal 
gangs that exploit the poverty and desperation of rural people. These 
organized criminal networks deal not only in illegal wildlife products 
like ivory and rhino horn, but also in other contraband such as drugs 
and illegal weapons.
    Poaching in regions like Tsavo not only destroys a valuable 
economic resource and threaten the safety of people (for example, 
through the proliferation of illegal firearms and organized crime), it 
also destabilizes the natural environment. The commercialization of the 
bushmeat trade (the killing of wild animals for food) and the exotic 
trade in animal parts such as pangolin scales and lion bones are having 
a devastating impact on multiple species from small antelope to large 
predators and other megafauna.
    The poaching and wildlife trafficking threat presents a complex law 
enforcement and social challenge. Much of the illegal activity occurs 
in remote and expansive rural areas where wildlife and humans coexist 
and outside the Kenya Wildlife Service managed National Parks. Most 
rural people in Tsavo view wildlife as a threat to their lives and 
livelihoods, or as competition for resources (grazing, land, water). 
They see few direct or even indirect benefits from wildlife, and in the 
absence of other income opportunities will resort to poaching on behalf 
of others as a form of employment.
    Wildlife conservation for its own sake is a new concept to most of 
Tsavo's rural inhabitants, in which they currently see little value. 
Conservation is viewed primarily as a foreign indulgence.
    In seeking solutions, I believe the term ``wildlife management'' is 
a misnomer. To conserve wildlife and other natural resources, we need 
to first and foremost manage ourselves, and mitigate the negative 
impact of our own human activities. Wildlife will prosper and natural 
resources will bring more equitable, more sustainable benefits, if we--
as the dominant species--can provide a conducive environment.
    Kenya is developing at a fast rate. With the undeniable benefits of 
development also come many challenges, some of which, such as internal 
security, are shared with the United States and other countries. 
Kenya's human population is increasing, new and essential 
infrastructure is appearing in remote rural areas, new centers of human 
settlement are increasing the demands on ecosystem services.
    In Kenya as elsewhere across the world, the exposure to widely 
accessible modern communications and new media has given impoverished 
rural people a wider perspective and created new expectations, in some 
cases far beyond what is realistically achievable. In some areas, this 
has resulted in resentment, dissent, despondency, and anger: an ideal 
environment for exploitation by extremist or organized illegal 
entities.
       tsavo trust's approach--stabilization through conservation
    In response to the complex and multifarious challenges faced by the 
Tsavo ecosystem, Tsavo Trust is implementing its Stabilization Through 
Conservation (StabilCon) approach, which is a holistic strategy to 
securing both human and wildlife populations against the various 
threats currently facing this strategically and ecologically important 
region and its people.
    StabilCon rests on the premise that sustainable development and the 
management of natural resources, including wildlife, can only succeed 
in a stable environment; conversely, prudent management of natural 
resources can be used as a catalyst for creating that stability.
    StabilCon utilizes conservation infrastructure not only to protect 
wildlife but also to help stabilize the human terrain, thereby 
supporting the national security effort and giving wildlife and the 
natural environment a much greater value than tourism dollars alone. It 
provides a holistic, culturally aware and nature-based approach to 
undermining the spread of organized crime, reduce illegal wildlife 
trafficking, it helps curb radicalization through strengthening rural 
economies and protecting biodiversity while populating vulnerable areas 
with robust community governance systems.
    Today, many of the world's remaining natural environments are 
subject to physical, economic, environmental or structural insecurity. 
In Tsavo, rural communities are the most important actors in countering 
wildlife crime and other illegal activities at source, but they will 
only have the ability and resolve to act against these destructive 
influences if they have the opportunity to prosper themselves and have 
realistic prospects for the future. The StabilCon approach comprises 
four interrelated goals:

          (1) Reduce physical insecurity for people, wildlife and 
        natural resources to a manageable level as a mandatory first 
        step;
          (2) Use the resulting physical security as the foundation on 
        which to build and diversify nature-based economic 
        opportunities and access the social services enabled by greater 
        prosperity;
          (3) Strengthen environmental security so that the benefits of 
        a healthy environment, which underpins all life, can be shared 
        between this generation and those that follow; and
          (4) Build more robust, equitable and representative community 
        governance systems.

    By securing at-risk areas via nonaggressive, low-intensity 
engagement, respecting traditional livelihoods while delivering 
essential needs, StabilCon is a strategy, which can bring stability to 
vulnerable regions from the ``inside-out'' rather than adopting a more 
interventionist ``outside-in'' approach. StabilCon has the potential to 
`inhabit the space' currently open to exploitation by destabilizing 
forces.
    StabilCon does not seek to impose ownership or control over 
communities implementing the strategy; rather it provides a grounded 
approach which, when adopted by rural people, gives them the ``tools'' 
and technical capacity needed to address their own livelihood 
priorities in a sustainable way.
    StabilCon is working alongside Tsavo's rural communities, the Kenya 
Wildlife Conservancies Association (KWCA), Kenya Wildlife Service 
(KWS), national government law enforcement agencies, local and 
international academic institutions and other partners delivering on-
the-ground development and conservation projects.
    Tsavo Trust's remains committed to creating a unified best practice 
framework for potential adoption at the national level, both in Kenya 
and elsewhere.
      approach can be applied to other areas affected by poaching
    While Tsavo Trust is implementing StabilCon in southern Kenya, this 
strategy is readily exportable not only to other countries in Africa 
but also to other parts of the world where marginalized rural 
communities inhabit vulnerable, natural resource-rich environments. The 
StabilCon model is being exported to Northeast India where similar 
dynamics are at play and where poaching of elephants and rhino fuel 
instability and create conflict with local people. Other areas of 
Central Asia and Africa could benefit from the approach such as 
conflict hotspots and natural resource rich Democratic Republic of the 
Congo and Southern Sudan or even Afghanistan.
    Any structured organization working in the rural space can 
implement the StabilCon approach, including commercial businesses, 
faith based institutions, local or national governments, community 
groups, NGOs or civil-military partnerships.
    In particular, Tsavo Trust believes that StabilCon, can play a key 
role in contributing to the ongoing success of Community Conservancies 
in Kenya, particularly in currently underrepresented rural areas. 
Community Conservancies are essentially nature reserves, owned and 
holistically managed by local rural communities with support from 
stewardship organizations when required. The areas are zoned to allow a 
range of sustainable and complementary land uses, such as cattle 
ranching. Conservancies have already proved successful in Mongolia, 
Namibia, and Kenya, based on initial concepts developed here in the 
United States.
    The United States Government has provided a significant boost to 
Kenya's community-led conservation and development projects with the 
goal of creating a more stable environment, with more productive, more 
resilient rural communities contributing positively to Kenya's national 
effort.
    Ultimately, StabilCon puts conservation of wildlife and natural 
resources agendas higher priorities for people and rural communities, 
and serve as a catalyst for enhanced peace and stability.
    Mr. Chairman, I thank you for this opportunity to appear before you 
today to discuss this important issue. I look forward to answering any 
questions committee members may have.

    Senator Flake. Thank you.
    Mr. Froment.

STATEMENT OF JEAN MARC FROMENT, CONSERVATION DIRECTOR, AFRICAN 
          PARKS, BRYANSTON, JOHANNESBURG, SOUTH AFRICA

    Mr. Saunders. Mr. Chairman, members of the committee, thank 
you for giving the opportunity to African Parks to testify on 
the subject.
    My name is Jean Marc Froment. I am a biologist and I am 
working for conservation in Africa since 40 years. I basically 
work more in Central African countries.
    I was born in Eastern DRC and at that time Africa only 
counted 300 million inhabitants and the continent was quite 
peaceful.
    Very quickly, my passion for elephants and wildlife did 
become the center of my life. In 1975, my first job in 
conservation was an elephant translocation in Rwanda to Akagera 
National Park due to demographic pressures.
    Then I have been to Europe to get my master in biology. My 
main concern was to go back to the wilderness of Africa and I 
found a job in the 1980s as a U.N. volunteer in the north of 
the Central African Republic at the boundary of Chad and South 
Sudan. There I first met Richard Ruggiero and Mike Fay who were 
also working in the same field. It was a really wild area, 
completely untouched and inhabited with a lot of wildlife. But 
at that time though, this region was already facing major 
threats and security issues. Horsemen and Janjaweed from Darfur 
linked with the Northern Sudan army had already started 
slaughtering elephants, and at the same time, authorities and 
communities had already began killing elephants and responding 
to the demand of ivory and bushmeat trade.
    So to show the dimension of the problem, I asked Iain 
Douglas Hamilton, who has created ``Save the Elephants,'' to 
come for a census survey to highlight the dimension of the 
slaughter to the world at that time. Our job in that region 
just consisted in supporting the Ministry of Water and Forests 
to establish parks and fight the poaching.
    All my life, we have tried to support the public services 
to try to address the problem, but 20 years later, we are still 
there seeking to aid these administrations. The wildlife and 
the elephants were constantly decreasing, and in addition to 
the loss of the pachyderm, we were quickly losing more and more 
land. Why? Simply because if there were not more thank 300,000 
inhabitants in Africa, we then have reached 1 billion people. 
And 50 percent of the people in Africa are living with less 
than $2 per day. The essence of the problems is this one: the 
international demand and the demand linked to the demography.
    And today in all countries, the weakness of the public 
sector and the army are facts with all their consequences.
    The demand for land, proteins and wood is increasing, and 
in 2050, there will be 2.5 billion inhabitants. It is a big 
dimension. Africa will go through major changes in the next 20 
years.
    Logically in that context, insecurity problems will 
increase with the emergence of groups like Akni, Boko Haram, 
Seleka, LRA, al-Shabaab. It is part of the problem of poverty.
    The demand of high value commodities has increased with the 
impact that we know on elephants and rhinos. Everybody is using 
the opportunity, including rebel groups and armies. And it is 
effectively using a network enabling to exchange guns, 
munitions, money. Anyone: governments, armies, and rebels are 
stakeholders in this.
    In Garamba National Park in Democratic Republic of Congo, 
where we are working, we must address the poaching of LRAs and 
Janjaweeds, let alone the poaching linked to the Sudanese Army 
and military helicopters probably coming from Uganda to kill 
elephants.
    It is essential that the international community 
understands that the demand of high value products must be 
avoided at all cost and very urgently. It is not the sole 
action that we must undertake. Other solutions must be applied 
to solve the problem of the increasing of population and 
demography.
    There is an emergency: simple and pragmatic solutions for 
the management of natural resources must be implemented as fast 
as possible to help the states to control their resources.
    Given the size and the complexity of the crisis, but also 
the urgency to intervene, it is important to fix some 
priorities. It is widely accepted that the establishment of a 
truly protected area or network of areas is an essential 
element of the continental conservation strategy. The current 
protected areas are a good representative of the biological 
diversity of the continent and have legal statutes to allow 
their protection. Giving priority to the protected areas is 
certainly the establishment of the foundation of a pragmatic 
conservation strategy at the continental level that will 
snowball and will address more broadly the general problem of 
the environment.
    Natural resources and protected areas are not only the 
sectors suffering from the deficiencies of the public sector. 
Other sectors such as education, health, communications, could 
find solutions by delegating part of their responsibilities to 
the civil society, the NGOs, and the private sector.
    Yet, in many countries, management of natural resources and 
protected areas, wildlife remain in the prerogative of the 
state institutions. If the underlying problem is the failure of 
the public sector, then we need to find solutions to that. And 
in other sectors, private-public partnerships through state 
delegations and share of the responsibilities with the civil 
society have brought solutions.
    African Parks has certainly been a pioneer in that area of 
management of protected areas.
    The central concept of public-private partnership is the 
separation of the responsibilities between the states and 
African Parks. The state is the owner of the park and is 
responsible for legislation, policy, and strategy. African 
Parks is more responsible for the execution of the management 
functions and accountable to the states on its performance. 
This separation of functions is essential for the 
accountability for both partners, and it is a largely alien 
concept in the traditional conservation world.
    By entering into long-term partnership with governments, we 
assume the total responsibility for the national parks. We put 
in place governance structures. We manage the skills and we 
find funding solutions that are also desperately needed.
    When the government gives us the mandate and the power to 
manage, the results are formidable. In all parks that we are 
managing, we are making very good progress, and most of the 
wildlife population trends are increasing except maybe in two 
parks. In Garamba National Park and in Chinko, we have still a 
major problem with elephants facing the armed groups, the LRA 
and the Janjaweed. The main problem of that is because we 
cannot manage to get arms and ammunitions to train our guards 
and fully address the problem of security linked to the LRAs 
and other armed groups. And this is a major issue for us 
because so many people can get guns easily. Ammunition is also 
easy to find except for us who are legally bringing the 
security in the parks.
    I would like to add one point. I think it is very 
important. There is a ``black hole'' between CAR, northern 
Sudan, and northern DRC. It represents an area of 60 million 
hectares with very little resident populations where all rebel 
groups can find a refuge: Janjaweeds, LRAs, Senekas are present 
in this big zone and they are not far from Boko Haram. They are 
with the Janjaweeds. This wild area may become the most 
difficult question to address in Africa in the next 10-20 
years, and we ought to find a solution. Management of natural 
resources in that particular region is certainly a key element 
to prevent something that can become a tremendous disaster for 
Africa.
    Thank you very much.
    [The prepared statement of Mr. Froment follows:]

                Prepared Statement of Jean Marc Froment

                              introduction
    Mr. Chairman, members of the committee, thank you for giving the 
opportunity to APN to testify today on this subject. My name is Jean 
Marc Froment. I am a biologist and I am working for conservation in 
Africa since 40 years.
    My message is relatively simple and touches 2 points.
    The first: Africa faces an unprecedented complex conservation 
crisis. The second: A message of hope, which I believe, can be part of 
the solution.
Two examples
    But before developing these two points, I would start with the 
examples of two parks that were thought lost: Majete National Park in 
Malawi and Zakouma National Park in Chad.

  <bullet> Ten years ago Majete was a forgotten little park, 700 km2, 
        under strong demographic pressure. All wildlife had been 
        exterminated in the 1970s and 1980s. The trees were exploited 
        for construction and charcoal, the limits were not respected 
        and there were no more visitors. Today it is a protected area 
        completely repopulated with Black Rhinos, 280 elephants, lions 
        and leopards, and all other species. The park's infrastructure 
        has been rebuilt and a community conservation plan including 
        education, health, and tours in the park, is implemented. Three 
        lodges have been established and welcome 7,000 visitors a year 
        that generate 400,000 US$/year.
  <bullet> Zakouma National Park, 3,000 km2 in Chad, is located not far 
        from the border with Darfur and northern Central African 
        Republic. It has experienced an unprecedented wave of poaching. 
        Between 2004 and 2010, the elephant population has decreased 
        from 4,500 to about 450 elephants. This genocide was mainly due 
        to the rebellion organized from Darfur and the period of 
        insecurity that ensued in the region. Late 2010, APN has taken 
        over the total management of the park with a very strong 
        support of the Government of Chad. This allowed us to address 
        the first problem--security. In 2 years, after restructuring 
        the guard team, establishing a collaboration with the local 
        armed forces and having set up an intelligence system all 
        around the park, we have not only stopped the poaching but have 
        succeeded to secure a region of about 20,000 km2 around the 
        park. For the local communities, securing the area was the 
        first benefit and has opened a new economic and social 
        perspective.

    With these two examples, I hope to have shown extreme demographic 
and security contexts in which a large number of parks in Africa are 
today. But, that good management is able to address the real problems 
and can also quickly turn the dramatic situation in success carrying 
hope and pride.
                 1. africa faces a conservation crisis
    The conservation crisis is deep. It exposes the life and the 
specificity of the continent to extremely rapid degradation with all 
its consequences on biodiversity, the loss of ecological services, the 
vulnerability of rural communities, economic, global warming, etc.
    Two major factors lead the pressures:

  <bullet> Firstly, the demands related to global markets, and
  <bullet> Secondly, the demands related to population growth on the 
        continent.

The demands related to global markets
    By observing the conservation status of only one emblematic species 
of the continent one can realize one dimension of the threats.
    In 1950, there were probably more than 2 million elephants. In 2000 
the population was estimated at about 600,000. Currently, it is 
considered that Africa loses 35,000 elephants each year (9 percent of 
the total population). The Central African countries have lost 66 
percent of their forest elephants in 10 years. The increase of price 
and demand is the only reason of these trends.
    Who is benefiting from these markets? Certainly not the States, but 
a huge range of people from the authorities and army people, to 
communities and local poachers, to local and international traders and, 
even in some cases, armed groups. They are all linked, part of networks 
that are providing ivory, rhino horns to the market.
    Most certainly, armed groups, rebel and terrorist benefit from 
these particular markets to dispose of weapons and ammunition. In 
Central Africa, that I know well, the Janjaweets and their connections 
with North Sudan army played a major role in the extermination of 
elephants but also in terms of insecurity and the spread of weapons in 
Chad, Central African Republic, southern Sudan and northern DRC. Ditto 
for the Lord Resistance Army. But these are not the only ones that must 
be pointed at.
    The armed forces, or more precisely, elements of the armed forces 
in different countries are involved directly and indirectly in the 
killing of elephants and trafficking of ivory. Where do the weapons in 
the hands of these rebels and poachers come from? Where do the military 
helicopters that slaughter elephants in Garamba National Park last year 
come from?
    Again these are not the only ones. Many authorities supposed to 
help preserving the wildlife benefit from this trafficking. How many 
export licenses are issued each year illegally by those authorities? 
Examples are numerous. So many public sector failures, including 
concerned armed forces, failure in the control and management of vast 
and rich territories, failure in law enforcement, failure in 
controlling trades.
    For species affected by high-value amenities that involve regional 
and international networks for example ivory or rhino horn, the problem 
must be addressed at three different levels:

  <bullet> By stopping their slaughter through better management of 
        parks and if needed by addressing the security questions;
  <bullet> By stopping the local trade by understanding the networks 
        and arresting those involved; and
  <bullet> By stopping the demand through consumer awareness, but this 
        will take time.

    The question is ``how to do that''? How to support some states to 
preserve their resources? How to support some states to identify the 
networks and to arrest those involved? Is Public-Private Partnership 
part of the solution?
The demands related to population growth on the continent
    However, we cannot dissociate/forget the loss of habitat and fauna 
related to demographics, from this crisis:

  <bullet> In 1950, Africa had 250 million inhabitants, in 2000 it 
        reached 1 billion and in 2050 it will be 2.5 billion!!! In 
        addition to that growth is the increased needs related to 
        education, health, etc. Fifty percent of the population lives 
        on less than US$2/day! The repercussions on land requirements 
        for both small farmers and for large farms and on markets are 
        enormous.
  <bullet> Sixty percent of deforestation is related to the demographic 
        factor and 20-to-30 percent to commercial holdings (logging and 
        agricultural purposes). The demand for firewood or charcoal is 
        one of the most important causes. Over 80 percent of the 
        African population relies on wood as energy. Its impact is 
        massive.
  <bullet> The need in protein. In the Congo Basin it is estimated that 
        5 million tons of bush meat are extracted, traded, and consumed 
        annually. African gigantic areas were completely depopulated 
        from their wildlife. Domestic livestock replaced wildlife with 
        overgrazing.
  <bullet> The rapid evolution of the Human Foot Print and the poverty 
        question is the essence of this crisis.

    It is essential that the international community understands that:

  <bullet> If the demand for high value products has to be avoided at 
        all costs, this is not the only action to be undertaken. 
        Solutions to other ``requests'' more related to population 
        growth must also be found.
  <bullet> There is urgency and simple and pragmatic solutions must be 
        implemented quickly to allow the states to take control of 
        their resources.

    The weakness of the capability not only of public administrations 
but also of the security forces in a number of countries is the main 
cause of the difficulty that the states meet to mitigate the effects of 
these two factors--Demography and International Demand.
    The consequences of the conservation crisis are obvious:

  <bullet> The natural areas and wildlife will continue to melt. With 
        this scarcity, their value will increase.
  <bullet> Although the importance of the network of Protected Areas in 
        Africa, many of the 1,200 of them will be lost if solutions are 
        not found quickly for their protection and management.
  <bullet> The states that are now investing in a pragmatic solution 
        for the preservation of their protected areas will benefit from 
        the increase in their value.

    Given the size and complexity of the crisis but also the urgency to 
intervene, it is important to fix it some priority. It is widely 
accepted that the establishment of a truly protected area network is an 
essential element in the continental conservation strategy. The current 
protected areas are a good representation of the biological diversity 
of the continent and have legal statutes that allow their protection. 
Giving priority to the Protected Areas is certainly the establishment 
of a foundation for a pragmatic conservation strategy at the 
continental level that will snowball and will address more broadly the 
general problem of the environment.
                 2. how to support the african states?
    Natural resources, Protected Areas, are not the only sectors 
suffering from the deficiencies of the Public Service. Other sectors 
such as education, health or communications could find solutions by 
delegating part of their responsibilities to other actors--businesses, 
NGOs, etc.
    Yet in many countries, management of natural areas, protected areas 
and wildlife has remained the prerogative of state institutions. If the 
underlying problem is the failure of the public sector, it is important 
to look for solutions elsewhere. As in other sectors, the Public-
Private Partnerships through which states can delegate and or share 
some of their responsibilities to civil society, NGOs, private, may be 
solutions.
    African Parks has certainly been a pioneer in this area for the 
management of protected areas.
    Central to the concept of a public-private partnership is a 
separation of responsibilities between the state and African Parks. The 
State is the owner of the park and is responsible for legislation and 
policy. African Parks is responsible for execution of management 
functions and is accountable to the state for its performance. This 
separation of functions is essential for accountability of both 
partners--a largely alien concept in traditional conservation circles.
    African Parks is an African solution to Africa's conservation 
challenges. By entering into a long-term agreement (25 years) with 
governments, we assume the total responsibility for one or more of a 
country's national parks. We put in place the governance structures, 
the management skills and funding solutions that are all so desperately 
needed.

  <bullet> We become responsible for all the Law Enforcement staff that 
        are seconded to APN, make sure they are properly equipped and 
        properly trained to face the challenges of the Protected Area 
        including security of an entire region. We develop relations 
        with army, tribunal, and authorities to bring them on board.
  <bullet> We reintroduce species and put in place all infrastructures 
        to manage a park.
  <bullet> We become responsible for implementing community programs to 
        ensure that local people benefit from the existence of a 
        national park and understand its value. They become very 
        supportive of our action and a key element in the intelligence 
        systems that we put in place

    When our Government partners give us a mandate to manage--one that 
empowers us to manage and take responsibility--the results are 
formidable and all parks that we are managing, are making progress.
    I opened with two such examples, Majete and Zakouma, but there are 
numerous others among which:

  <bullet> In Liuwa Plain in Zambia the wildebeest migration has grown 
        by 300 percent in 10 years and species such as eland, lion, and 
        buffalo have been reintroduced and are thriving. At the same 
        time, the murder rate in the area has dropped from 52 per annum 
        to just 1.
  <bullet> In Rwanda, park income, a proxy for economic activity, has 
        grown fourfold in 4 years generating income for the 
        sustainability of the park as well as much-needed income for 
        community initiatives.

    The benefits of good management are not just restricted to 
wildlife--it benefits an entire region and the people living in it. The 
conditions necessary for elephants to thrive, are the same conditions 
that are necessary for people to thrive. A conservation solution is, in 
fact, a governance, safety and security, economic development and 
poverty alleviation solution.
    As African Parks, we manage eight such areas totaling nearly 6 m 
hectares. By 2020 we will manage 20, covering 10 m hectares.
    Managing a single park will typically cost between $1m and $3m per 
annum depending on scale and complexity.
    By doing so, it is possible to not only bring about peace and 
stability in otherwise often forgotten areas, a prerequisite for any 
form of economic and social development, but it preserves the wildlife 
and the ecosystem services on which we as mankind are dependent.

    Senator Flake. Thank you so much.
    Dr. Wittemyer.

 STATEMENT OF DR. GEORGE WITTEMYER, CHAIRMAN, SCIENTIFIC BOARD 
            FOR SAVE THE ELEPHANTS, FORT COLLINS, CO

    Dr. Wittemyer. Thanks, Chairman Flake, Ranking Member, 
members of the committee. I want to thank you for the 
opportunity to submit testimony for the record of this hearing.
    My name is George Wittemyer. I am a professor at Colorado 
State University, and I am the chairman of the Scientific Board 
for the Kenya-based organization, Save the Elephants. I have 
been studying the population of elephants in northern Kenya for 
18 years, witnessing ivory poaching hit elephants I know 
individually.
    I would like to begin by summarizing our current scientific 
knowledge on elephant poaching. Last September, I led with 
colleagues a peer-reviewed paper that used surveys of elephant 
carcasses across Africa to estimate the poaching of 100,000 
elephants in the 3 years between 2010 and 2012. I updated this 
analysis for this hearing finding poaching rates in 2013 and 
2014 continued to exceed natural growth rates for elephants, 
indicating the species has been in a poaching-driven decline 
for the last 5 years.
    Paul Allen's great elephant census of savanna populations 
uncovered massive losses in Tanzania, Mozambique, and Zimbabwe. 
Tanzania alone has lost over 50,000 elephants since 2009. That 
is a 60-percent decline in that country's elephants.
    The Wildlife Conservation Society documented a 62-percent 
decline in forest elephants between 2002 and 2011, and the 
decline in forest elephants continues.
    The Elephant Trade Information System documented the 
highest volumes of seized ivory ever recorded in 2013. Much of 
this ivory is trafficked out of two ports, Mombassa, Kenya, and 
Dar es Salaam, Tanzania. Scientific outputs have identified the 
problem sites. We now need serious action to address them.
    While these numbers are grim, it is important to recognize 
that the slaughter of elephants is not happening everywhere. We 
are seeing successes on the ground. I want to highlight our 
experience in northern Kenya where a community conservation 
model called the Northern Rangeland Trust supported by USAID 
and in collaboration with the Lewa Wildlife Conservancy and 
Save the Elephants has helped stop the poaching surge. 
Information from the communities and partner organizations have 
been critical in catalyzing effective policing actions by the 
Kenya Wildlife Service. The success is occurring in a remote, 
poorly policed region, awash in illegal small arms with few 
governmentally protected areas, an area with significant 
conservation challenges.
    Four fundamental tenets for successful community 
conservation can be drawn from this project.
    The first is good governance models, which are built 
through community-led decisionmaking with external oversights.
    The second is effective incentive models that get to the 
fundamental needs of the community. In our case, this is 
enhancing security to bring peace between different ethnic 
groups rather than a purely economic model.
    The third is land use planning to ensure long-term 
conservation viability.
    And the fourth is effective policing, which in our case has 
been enhanced through novel lines of intelligence provided by 
the community, but ultimately the policing was conducted by 
official enforcement agents making targeted and effective 
interdictions.
    Conditions that facilitate poaching and wildlife 
trafficking vary by country and sites within countries across 
Africa. There is not a single prescription that can solve the 
issue of wildlife poaching in Africa.
    Senator Flake. Doctor, can you hold that thought?
    Dr. Wittemyer. Yes.
    Senator Flake. They pulled a fast one and moved this from a 
15-minute vote to a 10-minute vote. So I just have a couple of 
minutes to go over and vote. So we will recess for just a few 
minutes and get right back to your testimony. I apologize for 
this, but hopefully Senator Markey will be here as well when we 
return.
    Dr. Wittemyer. Great.
    Senator Flake. So we are in recess.

[Recess.]

    Senator Flake. The hearing will come back to order. Thank 
you for your indulgence.
    We have been joined by Senator Udall from New Mexico.
    Dr. Wittemyer, if you will go ahead and finish.
    Dr. Wittemyer. All right. Thank you. Welcome, Senator 
Udall.
    So I had reached the point where I described the core 
tenets of the successful community conservation programs that 
we are working closely with in Kenya. I stopped at the point 
where I was talking about how conditions that facilitate 
poaching and wildlife trafficking vary by country and sites 
across Africa and that there is not a single prescription that 
can solve the issue of wildlife poaching in Africa.
    Funding targeted projects with implementing partners that 
are deeply knowledgeable and experienced in threatened areas is 
the model of Save the Elephants Elephant Crisis Fund, a 
tactical program seeing successes on the ground in a diversity 
of contexts. I have attached our annual summary to my testimony 
as an exemplar for the diversity of approaches and target areas 
to tackle wildlife poaching, and to provide some detail on the 
diverse portfolio of programs with which we are engaged.
    This is also the model that U.S. Fish and Wildlife Service 
Species Conservation Fund, a program widely seen as offering 
one of the greatest returns on investment for U.S. funding in 
Africa. Increasing funding to the U.S. Fish and Wildlife 
Service Elephant Conservation Fund is a mechanism for immediate 
impact on the elephant crisis.
    The U.S. Government plays a critical role in addressing 
elephant poaching and U.S. funding, particularly by USAID and 
the U.S. Fish and Wildlife Service, is the foundation of many 
successful projects. But there are other agencies that can 
contribute substantively as well. The DEA has a blueprint for 
successfully combating criminal networks in Africa. The 
Department of Defense Counter-Threats Office and the Treasury 
Department are experienced in disrupting criminal networks, 
expertise that could be highly effective in disrupting wildlife 
trafficking syndicates. The White House Executive order on 
wildlife trafficking has been critical to bring concerted 
action by the U.S. Government, but direct appropriations can 
ensure application of relevant expertise and experience to 
illegal wildlife trade.
    Ultimately, it is critical to enhance U.S. support of 
projects focused on population protection, judicial oversight 
and reform in source nations, and specialized criminal 
investigative units.
    Finally, the most obvious game-changer to end ivory 
poaching would be a ban on domestic ivory trade by China. 
Chinese rhetoric suggests that a domestic ivory trade ban by 
the United States may be the most likely action to catalyze 
this. We have reached the point where collectively we know how 
to effectively combat wildlife crime. This is a winnable 
battle. It is time to take action to dismantle the illegal 
trade networks and build the wildlife sector in Africa as a 
foundation for rural development.
    Thank you, Chairman Flake, and distinguished members of the 
committee. I look forward to answering any questions you may 
have.
    [The prepared statement of Dr. Wittemyer follows:]

               Prepared Statement of Dr. George Wittemyer

    Mr. Chairman, Mr. Ranking Member, and members of the committee, I 
want to thank you for the opportunity to submit testimony for the 
record of this hearing. I am honored to appear before your committee. 
My name is George Wittemyer--I am a professor in the Department of 
Fish, Wildlife and Conservation Biology at Colorado State University 
and the Chairman of the Scientific Board of the Kenya-based 
organization Save the Elephants. I have worked on elephant conservation 
issues in Africa for the past 19 years and have been a member of the 
IUCN African Elephant Specialist Group for the past 8 years. In 
addition, I serve as a technical advisor on elephants to the Kenya 
Wildlife Service.
    Three years ago my colleague and mentor, Dr. Iain Douglas-Hamilton, 
founder of Save the Elephants, testified before this committee to draw 
attention to the resurgence of the ivory trade and the resulting 
impacts to elephants and the human communities with which they 
coexist.\1\ At that time, he highlighted the evidence for the surge in 
ivory trafficking and summarized the history of ivory trade, making the 
point that, collectively, we successfully mobilized to stop the mass 
slaughter of elephants for ivory in the 1980s and can do so again. This 
will require working together to secure elephants in the field, disrupt 
trafficking, and reduce demand. We currently have a strong scientific 
capacity to assess what is happening across the African Continent that, 
with continued support, puts us in a position of strength to identify 
problem locations and assess the efficacy of interventions. Today, for 
this panel, I would like to (1) summarize the peer-reviewed scientific 
data, quantifying the scale of this problem; (2) highlight those 
populations currently being decimated and flag those under threat; (3) 
discuss a community conservation initiative in our research site in 
northern Kenya that provides an example of successful engagement on 
poaching; and (4) highlight lessons we have learned over the past 3 
years to curb elephant poaching and ivory trafficking.
              current state of elephant poaching for ivory
    The scientific community has provided devastating confirmation of 
the scale of illegal killing. Leveraging data from a unified carcass 
monitoring system instituted by the Convention on the International 
Trade in Endangered Species of Wild Fauna and Flora (CITES) called the 
Monitoring of the Illegal Killing of Elephant (MIKE) program, last 
September I published with my colleagues from Save the Elephants, the 
CITES MIKE program and Colorado State University a peer-reviewed paper 
in the Proceedings of the National Academy of Sciences, that 
contributed to the quantitative assessment of the continental scale of 
illegal killing. We estimated that 100,000 elephants had been killed in 
the 3 years between 2010-2012, driving a probable decline in the 
world's elephant population across its range.\2\ This paper helped to 
unite sentiment regarding the severity and scope of the elephant 
poaching problem.
    For this hearing, I conducted a followup analysis of the CITES MIKE 
data collected since the publication of that paper that suggests levels 
of poaching continued to be unsustainable in 2013 and 2014, with 
poaching levels persisting at just under 7 percent per year for the 
continent (similar to that experienced in 2010, but below rates 
experienced in 2011-2012). This suggests tens of thousands of elephants 
continue to be poached every year on the African Continent, a level not 
matched by the natural growth rate, signifying that the species has 
experienced declines each year for the past 5 years (on the order of 2-
4 percent per annum).
    We are now comparing these outputs with other data sources and 
finding consistent evidence regarding the fate of African elephants. 
Critical information from population surveys has been particularly 
enlightening. In 2013, a peer-reviewed paper lead by Wildlife 
Conservation Society scientists, with which I was involved, analyzed 
forest survey data collected during the previous decade, quantifying a 
62 percent decline in forest elephants between 2002-2011.\3\ The latest 
evidence suggest this decline continues. The picture is no better for 
African savanna elephants. The Great Elephant Census, a Paul G. Allen 
Project peer reviewed by African Elephant Specialist Group, is 
providing critical aerial survey data for savanna elephant populations. 
Most notable is the loss of over 50,000 elephants in Tanzania alone 
since 2009 (greater than 60 percent decline), with the loss of over 
7,500 additional elephants (50 percent decline) in the adjoining 
Niassa population of Mozambique.\4\ Illegal killing and subsequent 
trafficking at this scale requires serious logistical organization, and 
implies government agencies in these regions are extremely ineffective 
at best and actively colluding at worst. The poaching problem in the 
Selous-Niassa region of southern Tanzania and northern Mozambique was 
recognized as early as 2009. Since then, the Tanzanian Government's 
response to the problem has not met the challenge despite rhetoric on 
international stages to the contrary. In order to stem this ``blood 
bath'' (the Tanzanian Minister of Natural Resources' recent label for 
the current situation in Southern Tanzania), serious action--law 
enforcement, arrests, and prosecutions--is required.
    While Tanzania has been the primary location of industrial scale 
poaching on the continent over the last 5 years, censuses have now 
documented severe losses of over 10,000 elephants within Zimbabwe and 
Gabon.\3\<SUP>,</SUP>\4\) These losses are in addition to the killing 
of hundreds to thousands of elephants within many countries, including 
Kenya, Zambia, Cameroon, Republic of Congo and DRC.\3\ With some of the 
more accessible populations having now been depleted, we are seeing 
signs of increased pressures in adjoining areas. This puts countries 
such as Zimbabwe, which holds large populations near the killing fields 
of Tanzania and Mozambique, and Zambia under threat. Similarly, 
population in Cameroon and Republic of Congo are experiencing 
increasing pressure. We need to mobilize resources to protect these 
susceptible areas as well as ensure the security of Botswana's and 
Gabon's elephant populations, where respectively the majority of 
savanna and forest elephants reside.
    Long-term ivory seizure records collated and analyzed by the CITES 
Elephant Trade Information System (ETIS) by TRAFFIC, a joint program of 
WWF and the International Union for the Conservation of Nature (IUCN), 
provides the best metric of global illicit ivory trafficking. Data from 
ETIS have shown a massive increase in ivory seizures starting in 2010, 
with 2013 showing the highest seized volume ever recorded. Large volume 
seizures are increasingly driving these trends, a clear indicator of 
organized criminal syndicates involvement in ivory trafficking.\5\ The 
vast majority of ivory seized since the surge in 2010 was trafficked 
out of the ports of Mombasa, Kenya, and Dar Es Salam, Tanzania destined 
for China.\5\ Ivory from these seizures is being genotyped to identify 
their source populations. A study published last month in Science out 
of the University of Washington showed recent seizures were 
overwhelmingly comprised of ivory from elephant poached in Tanzania and 
Mozambique.\6\ These data also provide important insights about 
trafficking routes within Africa, showing that most of this seized 
ivory originating in Tanzania was trafficked out of Kenya's port in 
Mombasa, potentially to hide trade routes. It is critical to end the 
ability of the kingpins of illegal smuggling networks to operate with 
impunity, but we have seen far too few successful prosecutions and 
therefore little disruption of this illegal trade to date.
    While horrifying, these numbers do not actually capture the total 
impact on elephants, a deeply social species that maintain close, 
lifelong family bonds--a social system similar to humans in many 
ways.\7\ It is well documented that poaching for ivory tends to select 
older, and therefore larger tusked, individuals in a population, namely 
the primary breeding males and the matriarchs and mothers in 
families.\8\ Poaching, thereby, leaves behind orphaned juveniles 
without the support of their families. The repercussions of poaching on 
these orphaned survivors is not fully understood, though we know they 
have lower survivorship relative to nonorphaned 
juveniles.\9\<SUP>,</SUP>\10\ As such, poaching likely leads to 
indirect demographic effects.\11\ In addition, we know elephants 
fulfill critical ecological roles as browsers and seed 
dispersers,\12\<SUP>,</SUP>\13\ a force against bush encroachment, and 
in maintaining habitat components on which other species are 
dependent.\14\ The negative and varied impacts of the loss of such 
species that fill such important ecological roles, termed ecological 
engineers, is well documented,\15\ and a serious concern for rangeland 
and forest health in Africa. The loss of elephants will drive a 
transformation of Africa's ecology as we know it.
    I want to emphasize the role of science in identifying the scale, 
timing, and location of this slaughter of elephants, information 
critical to mobilize global action to stem the problem. The analyses 
and data highlighted here have identified the hotspots of killing and 
trafficking hubs. These are the key nodes to be tackled in a complex 
illegal trade chain. More generally, these data have revealed the scale 
of this issue and catalyzed collaborative action by wildlife management 
agencies, NGOs and global policy bodies, providing the political will 
and funding to make an impact. Sustaining independent, scientifically 
rigorous data collection efforts, often carried out by international 
NGOs and supported in many cases by U.S. funding, is fundamental for 
assessing the effectiveness of investments in frontline protection as 
well as antitrafficking. The success of science in identifying and 
monitoring elephant poaching and ivory trafficking has been a rare 
bright spot in efforts to combat wildlife crime. The International 
Consortium on Combating Wildlife Crime with other global policy bodies 
have recognized the successes in elephant monitoring, and are 
interested to replicate this model on other species to gain greater 
understanding of illicit wildlife trade generally.
                       implications for security
    The scale of the illegal wildlife trade relative to other criminal 
activities has been well documented, valued at billions of dollars 
annually with proceeds ultimately strengthening criminal networks and, 
in some cases, insurgent groups. Wildlife resources, like ivory, take 
much less infrastructure to reap than guns, minerals, drugs, or oil and 
are relatively easy to traffic. In addition, wildlife resources are 
concentrated in remote areas with limited government capacity to police 
or areas riddled with corruption (where poaching of elephants and 
illegal trade in ivory is most acute, poor governance is a serious 
contributing factor).\16\ This confluence of factors has driven the 
illegal wildlife trade into the top five illegally trafficked goods 
globally.
    Illegal wildlife trade has a number of costs to local communities. 
The increased militarization of poaching operations is leading to 
destabilization of areas and this loss of law and order has cascading 
effects on human populations. Illegal wildlife trade can enhance local 
and national corruption by altering power bases, leading to less 
effective judicial and governmental function. In addition, increased 
insecurity and resource losses undermine both consumptive and 
nonconsumptive tourism, which is often the most important direct source 
of revenue from wildlife to local communities and can be a substantial 
contributor to local economies. In addition, militias involved in 
illegal killing of wildlife are often involved with other criminal 
activities, some of which directly prey on local communities (e.g., 
banditry and livestock rustling). Links to insurgent groups have been 
documented in multiple areas in Africa, as others on this panel will 
speak to. Such groups extract a serious toll on the communities and 
nations where they are operational.
                           example of success
    While the numbers presented and conditions on the ground in many 
countries are grim, it is important to recognize that the slaughter of 
African elephants is not happening everywhere and that we are beginning 
to see successes in populations that faced severe threats just last 
year. The situation where we have been able to turn the tables 
successfully that I know best is for the elephant population of 
Northern Kenya, where Save the Elephants operates a field station and 
works in close collaboration with neighboring private organizations 
such as Lewa Wildlife Conservancy and the Northern Rangeland Trust, as 
well as the Kenya Wildlife Service. I want to summarize what we know 
demographically and economically about poaching in this population and 
then summarize the conservation model implemented in this area that has 
proved successful.
    We have been monitoring the Samburu elephant population of northern 
Kenya intensively over the past 18 years, from which we have collected 
detailed demographic data on individual elephants that allow us to pull 
out highly accurate poaching rates and demographic trends. This is the 
finest resolution data on poaching impacts available for the species, 
and provides the most direct metric of intervention success. We began 
to experience increasing rates of illegal killing for ivory in 2009, 
which rapidly grew to its peak of over 8 percent of the population 
during 2011. The rapid increase closely tracked a surge in black market 
ivory price in Isiolo, the local trade hub, where ivory prices were 
below $30/kg in 2007, but rapidly increased to $150-$180/kg in 2011.\2\ 
Poaching rates, at 4 percent in 2012 and 2013, decreased after this 
peak year but were still unsustainable. Black market ivory prices 
remained high at over $100/kg during this time (though lower than the 
peak of 2011). However, in 2014, poaching rate declined precipitously 
to around 1 percent. This is a sustainable rate of offtake, and the 
population increased in 2014 for the first time since 2008. While only 
half way through the year, we continue to experience markedly lower 
levels of illegal killing in 2015 with multiple signs of sustained 
success.
    This sustained decline in poaching was driven by effective 
antipoaching operations carried by the Kenya Wildlife Service in 
partnership with NGOs coupled with a successful community conservation 
model. In this ecosystem, we have been working closely as part of a 
public-private partnership between a consortium of pastoralist 
community conservancies collectively called the Northern Rangelands 
Trust (NRT), Lewa Conservancy, and the Kenya Wildlife Service. NRT is a 
program supported by The Nature Conservancy and USAID to great effect, 
where a good governance model of community led decisionmaking with 
comanagement by partners has led to effective engagement and support 
for conservation among nomadic pastoralist communities. In order to be 
a member and access resources made available through NRT, communities 
must elect officials to their governing board, which serves as the 
primary decisionmakers on budget and natural resource management 
matters. This transparent and grassroots governance model is 
fundamental to NRT's success.
    The primary incentive to join NRT and subscribe to its conservation 
model is the provision of security. Due to northern Kenya being awash 
with illegal small weapons, security is a fundamental concern for the 
region's ethnic groups. The primary success of NRT, with USAID, support 
has been to bring peace between different ethnic groups in the region. 
Economic development is part of this model, but is directed toward 
bringing new economic activity through enhancing access to cattle 
markets (activities supported directly by USAID) and livestock 
husbandry efficiency, as well as tourism where tourism development has 
high potential (which is not in all conservancies). As a result, 
markets are more accessible and jobs are created.
    The training and equipping of community scouts, closely vetted and 
overseen by community boards and comanaged through the NRT umbrella, 
has helped ameliorate tribal tensions. These efforts have also brought 
an effective informant network covering a broad and remote region. In 
close partnership with the Kenya Wildlife Service, these communities 
that were once antagonistic to the wildlife service now pass 
information in support of government antipoaching activities. This 
collaboration has been critical in turning the tide on poaching in 
northern Kenya.
    The importance of political will and support of the government is 
vital to success. From 2012, the Kenya Wildlife Service (KWS) conducted 
an antipoaching surge, assisted by the private sector. KWS was 
effective in targeting the well-armed poaching groups, neutralizing 
major field operators. More importantly, KWS with other Kenya 
governmental policing groups neutralized known local traffickers. 
Intelligence based interdiction of middlemen in Isiolo, the hub of 
wildlife trafficking in our area, has had a perceptible effect of 
driving down poaching rates. Most notably, the price of black market 
ivory which had remained stubbornly high over the past 4 years has 
finally started to decline. It is speculated that this is because 
general fear of KWS intelligence on illegal wildlife trade networks has 
moved many individuals out of the poaching arena. In addition, recent 
Kenyan legislative advances that substantially increase penalties for 
wildlife crime likely also contribute to this fear.
    Telling is an event that I experienced last month in Samburu. A 
tribal conflict over grazing lands and water access flared up south of 
the protected areas where our research is based. As a result, the area 
between the two ethnic groups was devoid of people, providing a void in 
policing of the area. Three elephants were shot in the area, our first 
poaching incident in direct vicinity of our research site in over a 
year. We responded with KWS, visiting the carcasses to identify the 
individual elephants killed as part of our monitoring program. To our 
and KWS's great surprise, the ivory was not taken from these elephants, 
though body parts had been removed presumably for black magic. The 
individuals that poached the elephants decided not to take the ivory in 
fear of retaliation by the KWS antipoaching unit. None of us had seen 
an illegally killed elephant with its ivory in the last 7 years. I 
believe this event speaks to the scale of the changes that have 
occurred in Northern Kenya over the past 2 years.
    The example of collaboration between the private sector, 
communities, and government forces in Northern Kenya demonstrates the 
success of a model where force against poachers is conducted with the 
enhancement of community programs. The genuine interest in people's 
welfare on the part of the conservation community has helped engender a 
conservation oriented management scheme by the local government and 
people, where poachers are viewed as destructive to the communities' 
welfare and, therefore, ostracized. U.S. support through USAID in 
northern Kenya has played a significant role in catalyzing a whole 
chain of events from peace to reducing the wildlife trade, with new 
economic incentives to sustain the gains.
                        key solution components
    It is critical to recognize that the conditions that facilitate 
poaching and wildlife trade vary by country and even within national 
sites across Africa. As such, there is not a single prescription that 
can solve the issue of illegal wildlife trade in Africa. However, we 
have a number of approaches that are being applied with effect, which 
need to be supported, amplified, and augmented where appropriate. 
Across Africa, we see evidence of the importance of healthy 
collaboration between the private sector, conservationists, and the 
national wildlife management authorities. The success of such public-
private conservation models requires sustained funding and monitoring 
of project objectives. In addition to funding and monitoring, I wanted 
to highlight four fundamental tenets for success that are often 
overlooked:

    (1) Good governance: Examples of successful community engagement 
uniformly invest in good governance fundamentals, being (i) community 
engagement/leadership in decisionmaking; (ii) comanagement models with 
external oversights to increase transparency and reduce options for 
corruption; and (iii) functional legal frameworks/institutions that 
provide license to operate (or facilitation of legal processes where 
functionality is lacking as exemplified by the activities of the Last 
Great Ape Foundation--LAGA).
    (2) Land Use Planning: Africa is experiencing rapid agricultural 
and infrastructural development, and we have evidence of communities 
facilitating wildlife trafficking where it is perceived wildlife are 
strictly a cost to livelihoods, as can occur where conflict with 
wildlife is high (often in relation to crop raiding). To ensure 
success, conservation projects need to address underlying problems 
between local livelihoods and wildlife and be located in areas with 
long-term prospects for wildlife. With enormous development aid and 
investment in sub-Saharan agricultural expansion, it is critical that 
wildlife-sensitive land use planning is a core part of development 
implementations. A danger is where conflicting development projects 
implemented in the same community undermine the goals of one another.
    (3) Incentives: Development of the appropriate incentive model for 
a site is key for success. Incentives must address underlying needs of 
the communities, which are highly varied across locations. In Northern 
Kenya, enhancing security and promoting peace across the ecosystem has 
been the primary attractant. In Namibia, we see economic benefits from 
hunting being core to successful community conservation projects (the 
wildlife sector is a primary contributor to GDP in multiple elephant 
range nations). Another part of this is ameliorating the costs of 
wildlife to communities where they exist.
    (4) Security and Policing: It is critical to have effective 
security and policing activities in place to protect wildlife and 
disincentivize criminal activity. Where policing activities also 
provide security to local people, as in northern Kenya, greater 
community support for efforts to reduce poaching emerge. In addition, 
community buy-in to policing efforts provides critical lines of 
communication for procuring intelligence. Accurately targeted 
intelligence-based interventions are fundamental to disrupting illegal 
wildlife trade and maintaining community support. However, the risk 
exists that trained and armed local scouts can facilitate or conduct 
illegal wildlife trade and concerns over the increased militarization 
of antipoaching forces have been raised. Effective antipoaching only 
works if oversight is in place.

    It is increasingly important to build out these tenets for success 
in areas that are at greatest risk from illegal wildlife trade. We are 
seeing increased evidence that poaching moves to points of least 
resistance quite fluidly. Elephant poaching was targeting areas outside 
protected areas in Central Africa, with core protected areas providing 
the few safe havens in this region. But increasing evidence suggests 
these core areas are now under threat. It is critical to provide 
immediate investment in these core areas that are serving as the final 
strongholds of elephants in this region, in particular Odzala and 
Nouabale-Ndoki in Republic of Congo, Lobeke, Boumba Bek and Nki 
National Parks in Cameroon, and Minkebe National Park in Gabon. In 
savanna systems, evidence suggests increasing pressures on Zimbabwe and 
Zambia as well as continued poaching across Tanzania and Mozambique.
    In recognition of the need for rapid targeted responses to the 
fluid pressures of the illicit ivory trade, Save the Elephants with the 
Wildlife Conservation Network created the Elephant Crisis Fund (see 
Appendix 1). This is a zero overhead model to support targeted and 
catalytic projects on the ground in Africa. The model relies on 
implementing partners that are deeply knowledgeable and experienced in 
the areas under threat, building on decades of individual relationships 
within wildlife conservation circles across Africa, as well as global 
cross-sectoral networking. In just over 2 years, the ECF has deployed 
$4.2 million to support 25 different partners implementing projects 
ranging from Africa to Asia addressing poaching, trafficking, and 
demand reduction. It has seen marked successes in difficult to work 
regions, highlighting that investing directly in experienced on the 
ground partners is the most effective way to address the wildlife crime 
problem. Programs like USFWS Multinational Species Conservation Funds 
apply this same theory to great effect.
    Save the Elephants has also been at the forefront of using GPS 
animal tracking technology to enhance conservation effectiveness. Our 
novel technological approach leverages real time GPS data on the 
location of elephants to deploy antipoaching assets in the field, 
identify when elephants enter danger zones to ready interventions, and 
monitor individuals (great tuskers) that are at high risk. A real-time 
analytical system sends alerts to wildlife managers and partners via 
text messages and emails when individuals approach or enter high risk 
areas. We also disseminate alerts when elephant behaviors suggest 
problems, such as prolonged immobility which can mean poaching. These 
tracking data also are put to task for land-use planning, including the 
identification of important, unprotected areas and corridors connecting 
hotspots across the ecosystem. We are working closely with Paul G. 
Allen's Vulcan to further develop this system and make it publicly 
available to all conservation organizations.
    Higher up the trade chain, the impunity of kingpins in trafficking 
networks remains a serious problem in addressing this issue. We have 
seen models of success from other agencies that can be replicated to 
impact wildlife trafficking networks. One example is a collaboration 
between the U.S. DEA with Kenya's Anti Narcotics Unit, and others, 
whereby a drug trafficking ring out of East Africa run by the Akasha 
family was dismantled. A specialized, 16-man investigative unit was 
formed, in which all personnel were highly screened using lie detectors 
and drug tests. Some of the biggest drug busts of the year have been 
directly attributed to this small focused unit. Means to attack the 
underlying financial basis of these trafficking networks is another 
important aspect to be mobilized. U.S. Departments like the Department 
of Defense Counter Threats Office and the Treasury Department are 
already engaged in this work for other types of criminal networks. 
Their expertise could be highly effective in disrupting wildlife 
trafficking networks.
    At a macro scale, the African elephant range State led African 
Elephant Action Plan, agreed upon by all 38 range states, prioritized 
objectives and actions to address the threats facing African elephants, 
with particular reference to poaching, ivory trafficking and habitat 
loss. This is an initiative needing funding and technical assistance 
support from the global community. The Elephant Protection Initiative 
(EPI) seeks to raise the support needed for implementation of the 
African Elephant Action Plan from global partners, including the 
inventory and securing of ivory stockpiles and submission of stockpile 
data to CITES. In addition, the EPI calls for a closure of domestic 
ivory trade, which has been linked to international smuggling of ivory. 
A number of range states have signed onto the EPI, with many now 
conducting ivory stockpile inventories mandated by CITES. This includes 
Kenya which is conducting a national level inventory starting this 
week. Diplomatic support of this effort would greatly enhance its 
effectiveness.
    The International Consortium on Combating Wildlife Crime (ICCWC), a 
collaborative partnership of the CITES Secretariat, INTERPOL, UNODC, 
the World Bank and the World Customs Organization was established to 
enable a more coordinated response to wildlife crime, including a 
mechanism to collect robust data on illegal trade. This effort seeks to 
enhance monitoring of ivory trade, but also build on what we have 
learned from the monitoring efforts of ETIS and MIKE to implement more 
effective monitoring of illegal wildlife trade in general. Such science 
based initiatives are critical as discussed previously.
                               u.s. role
    The U.S. has played a profound role in conserving African elephants 
and continues to be a global leader in conservation efforts. I would 
like to thank Congress for providing the funding for U.S. agencies that 
are working to conserve elephants in the wild. Many of my colleagues 
highlight the U.S. Fish and Wildlife Service Elephant Conservation Fund 
as having the greatest return on investment of any government program 
on the ground in Africa. In addition, USAID has done tremendous work 
helping to conserve the large landscapes elephants and other species 
across Africa require. The rapid agricultural expansion across Africa 
is possibly the next greatest threat to elephants after ivory 
trafficking and the work of USAID in facilitating proper land use 
planning will be critical to the well being of the species in the long 
term.
    The White House Executive order on Wildlife Trafficking with the 
activities of the U.S. State Department have played a central role in 
bolstering wildlife trade enforcement efforts around the world and 
bringing high-level diplomatic attention to this issue. Convening the 
collective abilities of U.S. Government departments via this action 
increasingly appears to be the key to disrupt wildlife trafficking 
networks. It is vital this support continues and is increased to deal 
with the current crisis. Funding is needed to enhance core area 
protection in the areas under threat, catalyze judicial oversight and 
reform, and activate specialized criminal investigative units to attack 
criminal networks.
    U.S. leadership on wildlife trafficking has been critical in 
galvanizing the broader global community. Repeated diplomatic 
engagement with China on wildlife trafficking has significantly 
increased the attention and discussion paid to this issue. It is 
critical for the U.S. to continue on this constructive course. China, 
the destination of the vast majority of illegal ivory, has directly 
expressed that the steps they are making on handling their domestic 
ivory trade problems need to be matched by the U.S. The critical game 
changer in turning the tide on ivory poaching would be a ban on 
domestic ivory trade by China. Institution of a domestic trade ban by 
the U.S., being the second-largest consumer globally, appears to be the 
most likely action to catalyze this.
    U.S. diplomacy in Africa has also been critical to stimulate action 
by range states. President Obama's upcoming trip to Kenya offers a 
great opportunity to publicly recognize the political will that has 
been expressed and demonstrated through support of antipoaching efforts 
from President Kenyatta and judicial reforms regarding wildlife crimes. 
At the same time, the continued role of Mombasa in wildlife trafficking 
needs to be raised at the highest levels. Increasing diplomatic 
pressure on those countries demonstrating catastrophic failures to 
address this issue need enhancing. In particular, the criminal 
activities operating in Tanzania and Mozambique with impunity need to 
be ``called out'' at high levels with threats of further actions. Where 
diplomacy is not bearing fruit, it is time to back it up with tangible 
penalties such as withholding USAID dollars and discussing sanctions. 
It appears that the realistic threat of such actions is necessary to 
elicit movement by these governments and save elephants.

----------------
End Notes

    \1\ Douglas-Hamilton I (2012) Ivory and Insecurity: The Global 
Implications of Poaching in Africa (Washington D.C.), (U.S. 
Congressional testimony).
    \2\ Maisels F, et al. (2013) Devastating Decline of Forest 
Elephants in Central Africa. PLoS One 8(3):e59469.
    \3\ Wittemyer G, et al. (2014) Illegal killing for ivory drives 
global decline in African elephants. Proceedings of the National 
Academy of Sciences of the United States of America 111(36):13117-
13121.
    \4\ Underwood FM, Burn RW, & Milliken T (2013) Dissecting the 
Illegal Ivory Trade: An Analysis of Ivory Seizures Data. PlOS ONE 
8(10):e76539.
    \5\ Wasser SK, et al. (2015) Genetic assignment of large seizures 
of elephanve ivory reveals Africa's major poaching hotspots. Science.
    \6\ African Elephant Specialist Group (2015) African Elephant 
Database (http://www.elephantdatabase.org).
    \7\ Wittemyer G, Douglas-Hamilton I, & Getz WM (2005) The 
socioecology of elephants: analysis of the processes creating 
multitiered social structures. Animal Behaviour 69:1357-1371.
    \8\ Wittemyer G, Daballen D, & Douglas-Hamilton I (2011) Rising 
ivory prices threaten elephants. Nature 476(7360):282-283.
    \9\ Gobush KS, Mutayoba BM, & Wasser SK (2008) Long-Term Impacts of 
Poaching on Relatedness, Stress Physiology, and Reproductive Output of 
Adult Female African Elephants. Conservation Biology 22(6):1590-1599.
    \10\ Foley CAH, Pettorelli N, & Foley L (2008) Severe drought and 
calf survival in elephants. Biology Letters 4:541-544.
    \11\ Wittemyer G, Daballen D, & Douglas-Hamilton I (2013) 
Comparative Demography of an At-Risk African Elephant Population. PLoS 
One 8(1):e53726.
    \12\ Blake S, Deem SL, Mossimbo E, Maisels F, & Walsh P (2009) 
Forest elephants: tree planters of the Congo. Biotropica 41(4):459-468.
    \13\ Jordano P, Garcia C, Godoy JA, & Garcia-Castano JL (2007) 
Differential contribution of frugivores to complex seed dispersal 
patterns. Proceedings of the National Academy of Sciences of the United 
States of America 104(9):3278-3282.
    \14\ Pringle RM (2008) Elephants as agents of habitat creation for 
small vertebrates at the patch scale. Ecology 89(1):26-33.
    \15\ Terborgh J & Estes JA (2010) Tophic Cascades: Predators, Prey 
and the Changing Dynamics of Nature (Island Press, Washington D.C.).
    \16\ Burn RW, Underwood FM, & Blanc J (2011) Global Trends and 
Factors Associated with the Illegal Killing of Elephants: A 
Hierarchical Bayesian Analysis of Carcass Encounter Data. PLoS One 
6(9).

    Senator Flake. Thank you.
    Ms. Hemley.

 STATEMENT OF GINETTE HEMLEY, SENIOR VICE PRESIDENT, WILDLIFE 
       CONSERVATION, WORLD WILDLIFE FUND, WASHINGTON, DC

    Ms. Hemley. Thank you very much, Chairman Flake and Senator 
Udall and all the members of your subcommittee for the 
opportunity to testify today and for all of your attention on 
this issue. We greatly appreciate your efforts. World Wildlife 
Fund is the largest private conservation organization working 
internationally to protect wildlife and wildlife habitats, and 
we currently sponsor programs in more than 100 countries.
    I will not repeat points made by some of the previous 
witnesses, particularly with respect to elephants. But what I 
would like to do is touch briefly on the situation related to 
African rhinos and focus on the needs and potential solutions 
as related to community-based conservation, antitrafficking 
measures, and reducing demand. I will talk about a couple of 
examples from southern Africa.
    Let me first reference your comment, Mr. Chairman, earlier 
about the seriousness of this issue that we are dealing with. 
We are talking about transnational organized crime as applied 
to wildlife. And to that end, WWF strongly encourages support 
for the legislation currently pending in both Houses: S. 27, 
introduced by Senators Feinstein and Graham; and H.R. 2494, 
introduced by Representatives Royce and Engel. These bills 
would make large-scale wildlife trafficking a predicate offense 
to other major crimes such as money laundering, racketeering, 
and smuggling and provide critical tools for enforcement that 
are available now for other big crimes that we also need to 
apply to wildlife. So we are very encouraged to see this 
legislation being considered.
    Regarding rhino poaching, over the 50 years or so that WWF 
has been involved in rhino conservation, we have seen great 
strides in both the recovery of rhinos, both black and white 
rhinos, in Africa as well as periods of severe poaching. Today 
four countries hold the key to the black rhino's future in many 
respects: Namibia, Kenya, South Africa, and Zimbabwe. And for 
the white rhino, it is South Africa. However, the continued 
recovery of these populations and the survival of rhinos in 
other parts of Africa is now in doubt in many respects because 
of the recent resurgence in trade and demand.
    These days, all eyes are on South Africa where we have seen 
a massive increase in poaching over the last 7 years. The 
statistics are well known: 13 rhinos poached in 2007 to over 
1,200 in 2014. And according to information we received earlier 
this week, 2015 is on track to be the worst year yet for 
rhinos. Current research in South Africa supported by WWF is 
finding strong evidence that rhino horn trafficking is 
controlled by sophisticated organized crime groups that are 
involved in smuggling both people and narcotics, with 
operations firmly embedded within South Africa.
    In the last 3 years or so, tens of millions of dollars, 
including from generous supporters in the United States, 
including the U.S. Government, have contributed to the South 
African Government and other key stakeholders in the country 
and yet the poaching and trafficking problem is getting worse.
    We are highly concerned about the persistent allegations of 
serious levels of corruption there that occur hand in hand with 
these organized crime activities. It is our view that until the 
South African Government addresses these issues on a sufficient 
scale, that nothing is going to change. So we see this as a 
high priority and we encourage this committee to use its 
influence to press the South African Government to do more to 
help where we can as a country.
    Turning next door to South Africa, Namibia; Namibia is 
currently the continent's stronghold for black rhino, and the 
country is, in many ways, a great example of how wildlife 
resources, if properly conserved, can form the basis for both 
economic growth in impoverished regions and effective 
conservation. The community-run conservancies in Namibia are an 
effective model, thanks in part to generous support over many 
years from USAID and more recently the Millennium Challenge 
Corporation working with WWF and other local partners. In these 
conservancies, much as you have heard from other witnesses and 
other countries, local communities own, manage, and profit from 
their own wildlife resources, which has contributed to a 
rebounding wildlife population as well as increased economic 
benefits for local people.
    Until recently Namibia's rhino and elephant populations 
have been largely immune to poaching, but unfortunately, the 
wave of poaching that is sweeping Africa is finally hitting 
Namibia. About 70 rhinos have been poached this year, nearly 
all in the western part of the Etosha National Park. In just 
the last 3 weeks, though, we are encouraged that over 30 
arrests have been made, mainly of low-level government 
officials. So Namibia has got its own internal problem, but 
they seem to be taking action through a no tolerance for 
poaching approach that the country has taken on.
    The next key step for Namibia is to ensure that the 
judiciary prosecutes these crimes in a serious manner, and we 
are working to help them ensure that they have a dedicated 
wildlife prosecution specialist established.
    So when it comes down to it, one of the reasons Namibia has 
been successful, reflecting some of the comments made by other 
witnesses in other countries, many of the arrests have been 
achieved through information provided from community 
intelligence and former networks which are then passed on to 
enforcement officials.
    I will just mention briefly an example in Asia where we 
have also seen actually success in keeping poaching under 
control. The country of Nepal similarly strongly focused on 
community-based conservation with strong support for 
enforcement from the highest levels of government, has resulted 
in 3 of the last 5 years zero poaching of rhinos, elephants, 
and tigers in Nepal. And so it is just another example of what 
can be effective.
    Let me just briefly mention that we are not going to 
address this issue successfully unless we really disrupt these 
transnational organized crime syndicates, and to that end, it 
is critical to see enhanced intelligence and information 
systems not only within these countries but across countries, 
across borders. We do not yet have sort of proactive 
intelligence collection systems that are integrated across 
borders that will allow us to direct more strategically 
enforcement efforts, and so that is an area that we see as a 
weakness that could be remedied by training, support from the 
United States for training, provision of intelligence analysis 
software and additional resources that would allow enforcement 
staff to allocate more strategic focus on the areas that are 
the biggest problems.
    I know this is a priority for the State Department and the 
Fish and Wildlife Service. We urge continued support for these 
activities and we feel they are strongly needed.
    The last point I will make very briefly. A previous witness 
touched on this well. Stopping demand is obviously critical. Of 
the three areas that are critical for action in this whole 
issue, antipoaching, antitrafficking, and demand reduction, 
demand reduction has received by far the least investment over 
the years. So we see a real need to emphasize that more. We are 
encouraged by recent news from China as the big driver--
encouraged by the news that they are committed to limiting 
their ivory market, but we have not seen that action yet and it 
will be influenced by what the United States does as well for 
its ivory market.
    So I will stop there, Mr. Chairman, and look forward to any 
questions.
    [The prepared statement of Mr. Hemley follows:]

                  Prepared Statement of Ginette Hemley

    Chairman Flake, Ranking Member Markey, and members of the 
subcommittee, thank you for the opportunity to testify on the global 
wildlife trafficking and poaching crisis and its implications for 
conservation, economic growth and development, and U.S. security 
interests. WWF is the largest private conservation organization working 
internationally to protect wildlife and wildlife habitats. We currently 
sponsor conservation programs in more than 100 countries with the 
support of over 1.2 million members in the United States and more than 
5 million members worldwide.
                              introduction
    Illegal wildlife trafficking and poaching to supply the illegal 
trade in wild fauna and flora is one of the greatest current threats to 
many of our planet's most charismatic, valuable, and ecologically 
important species. Wildlife poaching and trafficking also poses 
significant threats not only to wildlife conservation and our shared 
natural heritage but also to security, good governance, and economic 
development objectives around the globe. In fact, wildlife trafficking 
has become a transnational criminal enterprise worth billions of 
dollars annually that is strongly connected to other transnational 
organized crimes, such as drug and arms trafficking, and is helping to 
finance agents of instability and corruption in many developing 
countries.\1\ According to the best estimates, the illegal wildlife 
trade has a value of $7.8-$10 billion per year, a figure which puts it 
the top five largest illicit transnational activities worldwide, along 
with counterfeiting and the illegal trades in drugs, people, and 
oil.\2\ If the illegal trades in timber and fish are included in the 
total, then the estimated value of illegal wildlife trafficking rises 
to $19-$20 billion annually. In terms of its size, wildlife trade 
outranks the small arms trade. It also has strong connections to other 
illegal activities--guns, drugs, and ivory may be smuggled by the same 
criminal networks and using the same techniques and smuggling routes.
    Much of the testimony offered today, including my own, will 
appropriately focus on two iconic African species: rhinos and 
elephants. But wildlife trafficking impacts a wide range of species 
across the globe. Tigers continue to be subjected to intense poaching 
pressures throughout their range in Asia--the parts of almost 1,600 
tigers were seized in tiger range countries over the past 15 years, an 
average of 2 per week--and numerous other species are being rapidly 
depleted to feed a voracious global trade, including marine turtles, 
sharks, pangolins, totoaba, corals, tortoises and terrapins, tokay 
geckos, song birds, and endangered plant species, such as orchids and 
tropical hardwoods. Every year, an estimated 73 million sharks are 
killed, primarily for their fins.\3\ Over the past decade, 20,500 tons 
of abalone have been poached and illegally traded from South Africa.\4\ 
Between 2000 and 2012, 218,155 pangolins were reported in seizures--a 
significant underrepresentation of the total estimated volume of 
trade.\5\ In Thailand alone, 19,000 tortoises and freshwater turtles 
were seized between 2008 and 2013.\6\ Illegal gillnet fishing and the 
resulting bycatch in Mexico's Gulf of California to supply consumers in 
Asia with the dried swim bladders of the totoaba fish is driving the 
world's most endangered marine mammal--the vaquita--to extinction.\7\
    At the root of this wildlife trafficking and poaching crisis is the 
growing demand--primarily in Asia--for high-end products made from 
wildlife parts, such as elephant ivory, rhino horn, and tiger skins and 
bones. Products made from these and other increasingly rare species 
command high prices on Asian black markets as purported medicinal cures 
(e.g., rhino horn powder and tiger bone wine), culinary delicacies 
(e.g., shark fins), or demonstrations of wealth and status (e.g., ivory 
carvings). Growing wealth in Asia, particularly in countries such as 
China and Vietnam, is a primary driver and has resulted in a steep 
increase in Asian consumers with the means to purchase such products--
and in the prices being paid for them. However, the criminal networks 
feeding Asia's growing demand are global in nature, reaching across 
oceans and continents and operating in many countries, including the 
U.S. Middleman traders often direct poaching activities and engage in 
targeted efforts to corrupt law enforcement, border inspection, and 
wildlife protection efforts in affected countries. In some cases, 
organized Asian criminal syndicates, which are now increasingly active 
in Africa, work with local economic and political elites to subvert 
control systems and operate with relative impunity.
    Overall, illegal wildlife trade produces a broad corrupting 
influence on governments, which is a central challenge. The combination 
of rapidly rising prices and inadequate enforcement regimes in many 
countries makes poaching and illegal wildlife trafficking a high 
profit, low-risk criminal enterprise and has led to a dramatic upsurge 
in not just the amount of poaching and illegal wildlife trafficking, 
but also its severity. Poachers supplying products such as elephant 
ivory and rhino horn are less often local criminals armed with spears 
or shotguns and more frequently resemble highly organized and heavily 
armed gangs, at times including militia or military personnel. They 
violate international borders, carry AK-47s and rocket-propelled 
grenades, and possess strong connections to transnational criminal 
networks. In some regions of Africa, trafficking in wildlife and other 
natural resources has been strongly connected to the financing of 
destabilizing forces, including armed insurgencies, groups responsible 
for human rights abuses, and organizations with ties to terrorism.\8\ 
In many parts of Africa and Asia, poachers and wildlife traffickers can 
operate largely with impunity due to weak laws or law enforcement, poor 
capacity, governance shortfalls, and an overall failure of governments 
to recognize wildlife crime as a serious crime.
    It is on the ground, primarily in developing countries and rural 
regions, where large-scale illegal trade in wildlife and wildlife 
products is having its most devastating effects, negatively impacting 
local communities by undermining regional security and economic growth 
while exacerbating corruption and instability. Many developing 
countries are witnessing the rapid decimation of their wildlife--a 
potentially valuable resource on which to build sustainable growth and 
eventually bring greater stability to impoverished and often conflict-
torn regions. At the same time that wildlife crime is taking a profound 
toll on many ecological systems, it is also robbing some of the poorest 
communities on earth of their natural wealth, breeding corruption and 
insecurity, and disenfranchising them of sustainable pathways to 
prosperity.
    Over the past 3 years, the U.S. Government has taken strong and 
significant steps to recognize that wildlife crime is a serious crime 
with serious consequences, including President Obama's Executive Order 
13648 and the administration's release in February 2014 of the National 
Strategy for Combating Wildlife Trafficking and in February 2015 of its 
subsequent implementation plan for the Strategy. Congress has also 
taken action, providing increased resources to U.S. agencies working to 
implement the National Strategy, proposing new legislation to 
strengthen U.S. laws and programs designed to combat wildlife 
trafficking and build antipoaching capacity in developing countries, 
and holding hearings such as this one, which have done much to bring 
attention to the current poaching crisis and educate decisionmakers 
about potential policy responses. In my testimony, I hope to present 
not just the current state of the problem but also some examples of 
both immediate and long-term solutions, as well as recommendations on 
further actions Congress and the administration can take to implement 
and enhance the National Strategy.
                             african rhinos
    The poaching crisis facing Africa's rhinos today is exemplary of 
the degree to which the current situation differs from the poaching 
challenges we have faced in the past. Highly organized, transnational 
criminal networks are taking advantage of emerging markets and 
skyrocketing prices for a black market luxury product--rhino horn--and 
have suddenly created a grave situation for a set of species that had, 
until recently, been regarded as one of Africa's great conservation 
success stories. WWF has been involved in rhino conservation and 
management in Africa for nearly 50 years. During that time, we have 
seen great strides in the recovery of both black and white rhinos on 
the continent. Southern white rhinos, once thought to be extinct, have 
recovered to number roughly 20,000 individuals in South Africa alone. 
Black rhinos have doubled in number over the past two decades from 
their low point of 2,480 individuals, though their total numbers are 
still a fraction of the estimated 100,000 that existed in the early 
part of the 20th century. Namibia is now the primary stronghold for the 
black rhino, South Africa for the white rhino. However, the continued 
recovery of these populations and the very survival of rhinos in parts 
of sub-Saharan Africa is now in doubt as these animals are mercilessly 
killed for their horns. Though trafficked in smaller amounts, rhino 
horn is worth far more than ivory and priced higher than gold pound for 
pound. Illicit traders can make more profit smuggling a kilo of rhino 
horn than from smuggling any illicit drug, and the risks are minimal in 
comparison.
South Africa
    South Africa is home to over 80 percent of the world's remaining 
rhinos and, through public and private efforts, has been largely 
responsible for the return of the southern white rhino. However, in 
just the past 7 years, it has seen the number of its rhinos killed 
illegally rise by 10,000 percent. In the early 2000s, roughly a dozen 
rhinos were poached in South Africa in any given year, but since 2007, 
the number has risen exponentially: from 13 rhinos poached in 2007 to 
over 1,215 in 2014.\9\ We anticipate that the South African Government 
will soon announce that nearly 700 rhinos were poached in that country 
in just the first 6 months of 2015--a figure that, if confirmed by the 
government, would put 2015 on track to be the worst year yet for rhino 
poaching in South Africa. Kruger National Park, which holds the 
majority of South Africa's roughly 20,000 rhinos, remains the epicenter 
of illegal activity: the Park lost 827 rhinos throughout 2014, 
representing nearly two-thirds of all the animals killed that year. The 
situation is all the more shocking given that South Africa is 
recognized to have the most well developed park system in Africa, with 
the highest capacity and best enforcement.
    Rhino horn poaching and trading operations in South Africa are 
closely associated with organized crime networks, some with access to 
high-powered weapons, helicopters, and night vision goggles. These 
paramilitary-type operations can easily outgun wildlife rangers, and 
South Africa has even resorted to military support and interventions in 
Kruger National Park--the primary site of the poaching surge--in order 
to combat rhino poachers. However, with potential profits so high, even 
some of those charged with protecting rhinos are becoming corrupted and 
helping to facilitate poaching. Current WWF-supported research in South 
Africa has found strong evidence confirming that rhino horn trafficking 
in the country is controlled by serious organized crime groups that are 
also involved in smuggling people and narcotics. The operations of 
these groups are firmly embedded within South Africa, and in spite of 
tens of millions of dollars in additional funding to the South African 
Government and other stakeholders from various sources in recent years, 
the poaching and trafficking is getting worse.
    WWF is particularly concerned about the persistent allegations of 
serious levels of corruption occurring hand in hand with serious 
organized crime activities, which are facilitating rhino poaching and 
trafficking within the government and private sector. For example: in 
September 2014, Lawrence Baloyi, a South African National Parks 
(SANParks) employee who was the section ranger for the Lower Sabie 
region of Kruger Park, was caught poaching rhinos. He was arrested and 
is awaiting trial. South Africa also faces the challenge of its long, 
porous border with Mozambique, a 220-mile stretch of which comprises 
the eastern border of Kruger National Park. Mozambique has come under 
increasing scrutiny as a major driver of both rhino horn and ivory 
trafficking, due to its role as a major transshipment point for illegal 
wildlife products out of Africa and a major base for poaching 
operations into Kruger National Park. It is estimated that 80 percent 
of the rhino poaching occurring in the park is being carried out by 
poaching gangs from Mozambique. The Convention on International Trade 
in Endangered Species (CITES) has placed increased scrutiny on 
Mozambique's failure to curtail illegal trade of rhino horn and 
elephant ivory, and some have called for stronger diplomatic action 
against the country, including possible certification by the U.S. under 
the Pelly amendment to the Fisherman's Protective Act.
    Many African nations have watched South Africa's rhino poaching 
rates with alarm, fearing that their rhinos would be targeted next--
particularly if South Africa somehow manages to prevent further 
slaughter and the poachers seek out easier targets. Unfortunately, over 
the past 2 years we have seen the situation not only worsen in South 
Africa but also spread elsewhere. Kenya has seen an increase in rhino 
poaching losses, which, as a percentage of their total rhino 
population, are worse than those in South Africa, and Namibia, which 
has remained largely immune to rhino poaching until recently, has seen 
a sudden surge of its own over the past 12 months.
Namibia
    Namibia is home to the largest free-roaming population of black 
rhinos on the planet and is an inspiring example of how conservation 
can benefit both people and wildlife when embraced by both the national 
government and local communities. Having written conservation into its 
constitution when it achieved independence in 1990, the Namibian 
Government proceeded to devolve ownership over wildlife resources to 
the local level, empowering local people in rural areas to establish 
community-run ``conservancies,'' in which communities own and manage 
their own wildlife resources and derive profits from ecotourism 
opportunities and sustainable use of wildlife. The conservancy 
movement, which has been strongly supported by WWF on the ground, has 
grown over the past two decades to the point where over 20 percent of 
Namibia's land area is now under conservancy management. This has 
resulted in new local attitudes toward wildlife, rebounding populations 
of such charismatic species as rhinos and lions, and an exponential 
increase in the economic benefits that communities receive from their 
wildlife resources, including income and employment. Due to joint-
venture lodges and related eco-tourism opportunities, community 
conservancies now generate upward of 6 million USD annually for rural 
Namibians--up from an insignificant amount in the mid-1990s. These 
successful programs receive critical support from USAID and, more 
recently, the Millennium Challenge Corporation, as well as WWF and 
others. By demonstrating the value of wildlife to local communities, 
these programs have made essential partners out of local people in the 
long-term conservation of wildlife and defense against poaching, 
helping to build successful informer networks and wildlife stewardship 
among communities, which have helped keep wildlife poaching low to 
nonexistent in communities where these programs have become 
established.
    Unfortunately, while Namibia's conservancies have overall seen low 
levels of elephant and rhino poaching, over the past year the country 
has seen a sudden uptick in rhino poaching centered on Etosha National 
Park. Around 70 rhinos have been poached in Namibia this year, nearly 
all in the more remote western area of the park. WWF has been concerned 
that it was only a matter of time before rhino poaching came to 
Namibia, and from our perspective, the biggest problem has been the 
lack of antipoaching capacity and, in the case of Etosha, the 
involvement of corrupt governmental officials. However, given the 
recent spike in poaching incidents, the situation now seems to be 
receiving high attention from very senior-level government officials, 
including with the federal Cabinet, who have worked with the Ministry 
of Environment and Tourism to appoint external investigators from the 
police, military and Protected Resource Unit, which is responsible for 
investigating crime related to diamonds, drugs, and rhino/ivory. It 
appears that the government has responded by adopting a ``no 
tolerance'' policy toward rhino and elephant poaching in Namibia, and 
the past month has seen 22 arrests related to the rhino poaching in 
Etosha National Park, as well as 9 additional arrests related to rhino 
poaching in northwestern Namibia around Palmwag nature reserve and 
nearby conservancies.
    These strong enforcement actions by the Namibian Government are 
promising signs and, demonstrate it is taking the new wave of rhino 
poaching seriously. However, WWF remains concerned with respect to the 
judiciary: we have seen magistrates release elephant poachers on bail 
and then the same poachers go back to poaching more elephants. The 
appointment this month of a new dedicated and experienced wildlife 
prosecution specialist to work exclusively on prosecution of rhino and 
elephant poaching cases is encouraging, but support for prosecutors is 
critical. Successful prosecutions under organized crime legislation--
not just poaching legislation--will serve as the real disincentives to 
additional poaching. This will take time and require greater 
investigative and forensic support, and it applies everywhere, not just 
in Namibia.
    In addition to evidence of the Namibian Government's high-level 
commitment to stop the poaching early and root out corruption, the 
continued strength of Namibia's model is the strong ownership over 
wildlife that communities possess through the conservancies. Many 
arrests for poaching have been achieved via community intelligence and 
community informer networks established through conservancies, which 
have passed intelligence on to law enforcement officials. In several 
instances when poaching incidents have occurred, the poachers have been 
apprehended within 24 hours because of information provided by local 
informers. WWF has seen similar successes through programs we support 
in Nepal, where an approach combining Community-Based Anti-Poaching 
Units, strong engagement by the government in park protection, and 
enhanced intelligence sharing have led to 12 months free of poaching of 
rhinos, tigers or elephants in that country on three separate 
occasions--in 2011, 2013 and 2014.
    Namibia's conservancy members increasingly resent both the 
increased poaching and low arrest and prosecution rates of those 
responsible--further evidence that conservancy members consider their 
wildlife a point of pride and that the conservancy movement has built 
wildlife conservation allies at the local level. In addition, it has 
helped to create local governance structures and local democracy, 
greater rural economic prosperity, and a respect for the rule of law in 
the country's post-apartheid era. It is clear that antipoaching efforts 
are not yet making a major difference to rhino poaching in South 
Africa--in part because the land area is so large and borders porous. 
The situation may be different in Namibia, however, where the poaching 
is evolving rapidly and there are few resources to combat it. The 
relationship between protected areas and neighboring communities is key 
to combating poaching activities, and we must work to disrupt the 
transnational organized crime syndicates that are funding poachers and 
smugglers and corrupting officials. A balanced approach including law 
enforcement efforts, successful prosecutions targeting organized crime 
and building the enabling environment for effective law enforcement, 
including core support from the local community, is the key to success 
in Namibia.
Rhino Horn Trafficking and Demand
    It is estimated that 3,000 kg of illicit rhino horn reaches Asian 
markets each year. Evidence indicates that horn smuggled from South 
Africa will go directly to consumer markets in Asia, but primarily to 
the middlemen market in Bangkok. From there it is sold onward to buyers 
from Vietnam, Laos and China and smuggled into those countries. 
Increased law enforcement at Bangkok Airport also means that some horns 
are now being smuggled to Malaysia and driven overland to Bangkok in 
order to reduce the risk of detection. The spike in rhino poaching has 
surged due largely to rising demand for rhino horn in Vietnam, where 
some believe it to be a last resort cure for fever and even cancer and 
others employ it as a party drug/hangover cure that doubles as a status 
symbol due to its exorbitant cost. Wealthy buyers have driven up prices 
and demand for rhino horn to a level where it is now being sourced not 
just from live rhinos in Africa and Asia, but also from trophies, 
antiques, and museum specimens in the U.S. and Europe. While trade in 
rhino horn is illegal in Vietnam, possession is not. Rhino horns are 
officially permitted in Vietnam only as personal effects, not for 
commercial purposes (under CITES rules) and are not to be traded or 
used post-import. Under the terms of the export permit from South 
Africa, horns are not to be used for commercial purposes. However, 
Vietnamese are not known for trophy hunting, and it is illegal for any 
private individual to own a gun in the country, suggesting that the 
large majority of legally imported horns are actually intended for 
illegal purposes. Until recently, Vietnam had shown little willingness 
to clamp down on illegal trade in rhino horn, but engagement by the 
U.S. Government and recent CITES decisions regarding rhino horn have 
helped move Vietnam to be more cooperative in addressing the problem. 
Much more will need to be done to dry up the illegal trade in rhino 
horn and educate the Vietnamese public, however, if current trends are 
to be reversed and demand for the product is to be curtailed and 
eliminated.
                             elephant ivory
    WWF has over 40 years of experience in elephant conservation, and 
through our African Elephant Program, we aim to conserve forest and 
savanna elephant populations through both conservation projects and 
policy development with elephant range state governments, local people 
and nongovernmental partners. TRAFFIC, a strategic alliance of WWF and 
IUCN--The World Conservation Union and the world's leading wildlife 
trade monitoring organization, tracks illegal trade in elephant ivory 
using records of ivory seizures that have occurred anywhere in the 
world since 1989. The Elephant Trade Information System (ETIS) managed 
by TRAFFIC, one of the two monitoring systems for elephants under 
CITES, comprises over 18,000 elephant product seizure records from some 
90 countries, the largest such collection of data in the world.
    African elephants once numbered in the millions across Africa, but 
by the mid-1980s their populations had been devastated by poaching. An 
international ban on the sale of ivory, put in place in 1989, helped to 
slow the rate of decline significantly for the past two decades in many 
parts of Africa. The status of the species now varies greatly across 
the continent. Some populations have remained in danger due to poaching 
for meat and ivory, habitat loss and conflict with humans. In Central 
Africa, where enforcement capacity is weakest, estimates indicate that 
populations of forest elephants in the region declined by 62 percent 
between 2002 and 2011 and lost 30 percent of their geographical 
range,\10\ primarily due to poaching. Elephants in Central Africa are 
also heavily impacted by the existence of large, unregulated domestic 
ivory markets, especially those still functioning in Kinshasa, 
Democratic Republic of Congo (DRC), and Luanda, Angola.
    In other parts of Africa, populations have remained stable or grown 
until recently, but evidence now shows that African Elephants are 
facing the most serious crisis since the 1989 ban, and gains made over 
the past 25 years are in the process of being reversed. Tens of 
thousands of African elephants are being killed every year to supply 
the illegal ivory market, with an average of 18 tons seized per year 
over the past 20 years and annual highs of over 32 tons seized. The 
Convention on International Trade in Endangered Species of Fauna and 
Flora (CITES) reported that roughly 25,000 elephants were illegally 
killed on the African Continent in 2011 and that another 22,000 fell 
victim to poaching in 2012. Many independent experts see these 
estimates as conservative and believe the number to be significantly 
higher, with some estimates ranging from 30,000 to as high as 50,000. 
The consensus is that in the 3 years from the start of 2012 through the 
end of 2014, approximately 100,000 elephants were illegally killed 
across the African continent--a brutal loss for the species.
    Data show an increasing pattern of illegal killing of elephants 
throughout Africa and demonstrate an escalating pattern of illegal 
trade--one that has reached new heights over the past 5 years. Those 
working on the ground throughout Africa have seen an alarming rise in 
the number of elephants being illegally killed, even in areas that were 
until recently relatively secure and free from large-scale poaching, 
such as southern Tanzania and northern Mozambique.\11\ Reports out in 
recent months from those two countries indicate that elephant 
populations have declined by 60 percent in the former and 50 percent in 
the latter in just 5 years time--shocking declines. Witnesses have also 
seen a disturbing change in the sophistication and lethality of the 
methods being used by the poachers, who are frequently well armed with 
automatic weapons, professional marksmen and even helicopters. In most 
cases, poachers are better equipped than park guards and supervisors. 
In some instances, they are better equipped even than local military 
forces. Illegal trade in ivory has been steadily increasing since 2004 
with the real surge beginning in 2009. Each of the subsequent years has 
hit historic highs for large-scale ivory seizures. Successive years of 
high-volume, illegal trade in ivory is not a pattern that has been 
previously observed in ETIS data. This represents a highly worrying 
development and is jeopardizing two decades of conservation gains for 
the African Elephant, one of Africa's iconic flagship species and an 
animal that the U.S. public feels adamant about protecting.
    Requiring greater finance, levels of organization and an ability to 
corrupt and subvert effective law enforcement, large-scale movements of 
ivory are a clear indication that organized criminal syndicates are 
becoming increasingly more entrenched in the illicit trade in ivory 
between Africa and Asia. Virtually all large-scale ivory seizures 
involve container shipping, a factor that imposes considerable 
challenges to resource-poor nations in Africa. Large-scale movements of 
ivory exert tremendous impact upon illegal ivory trade trends. 
Unfortunately, very few large-scale ivory seizures actually result in 
successful investigations, arrests, convictions and the imposition of 
penalties that serve as deterrents. International collaboration and 
information-sharing between African and Asian countries in the trade 
chain remains weak, and forensic evidence is rarely collected as a 
matter of routine governmental procedure. Finally, the status of such 
large volumes of ivory in the hands of Customs authorities in various 
countries, which generally do not have robust ivory stock management 
systems, remains a problematic issue and leakage back into illegal 
trade has been documented.
Elephant Ivory Trafficking and Demand
    In terms of ivory trade flows from Africa to Asia, East African 
Indian Ocean seaports remain the paramount exit point for illegal 
consignments of ivory today, with Kenya and the United Republic of 
Tanzania as the two most prominent countries of export in the trade. 
This development stands in sharp contrast to ivory trade patterns 
previously seen whereby large consignments of ivory were also moving 
out of West and Central Africa seaports. Whether the shift in shipping 
ivory from West and Central African Atlantic Ocean seaports reflects a 
decline in elephant populations in the western part of the Congo Basin 
remains to be determined, but the depletion of local populations is 
steadily being documented throughout this region, according to the 
IUCN's Species Survival Commission's African Elephant Database. Data on 
elephant poaching from the Monitoring Illegal Killing of Elephants 
(MIKE) program, the other site-based monitoring system under CITES, 
also show that illegal elephant killing has consistently been higher in 
Central African than anywhere else on the African Continent. Now, 
however, poaching is seriously affecting all parts of Africa where 
elephants are found.
    China and Thailand are the two paramount destinations for illegal 
ivory consignments from Africa. While repeated seizures of large 
consignments of ivory have occurred in Malaysia, the Philippines and 
Vietnam since 2009, these countries essentially play the role of 
transit countries to China or Thailand. Directing large shipments of 
ivory to other Asian countries for onward shipment is an adaptation by 
the criminal syndicates to the improved surveillance and law 
enforcement action in China and Thailand where targeting of cargo from 
Africa has increased. Importation into other Asian countries allows the 
shipping documents to be changed, concealing the African origin of the 
containers in question. In the case of Vietnam, which shares a long 
terrestrial border with China, ivory is being smuggled overland into 
China. CITES data also suggest that Cambodia, Laos, and most recently 
Sri Lanka have been emerging as new trade routes into China and 
Thailand, reflecting further adaptations by criminal trading networks.
    Without any doubt, ivory consumption in China is the primary driver 
of illegal trade in ivory today, and China remains the key for stopping 
the growing poaching crisis facing Africa's elephants. The Chinese 
Government recognizes ivory trafficking as the country's greatest 
wildlife trade problem, and law enforcement officials are making almost 
two ivory seizures every single day, more than any other country in the 
world. Regardless, strict implementation of China's domestic ivory 
trade control system seriously faltered in the wake of the CITES-
approved one-off ivory sale held in four southern African countries in 
late 2008. Various observers to China, including TRAFFIC monitors, have 
found government-accredited ivory trading retail outlets persistently 
selling ivory products without the benefit of product identification 
certificates, which previously were an integral discriminating feature 
in the Chinese control system. The ability of retail vendors to sell 
ivory products without these certificates means that they do not become 
part of China's database system, which is designed to track ivory 
products at the retail level back to the legal stocks of raw ivory at 
approved manufacturing outlets. This circumvention creates the 
opportunity to substitute products from illicit sources of ivory into 
the legal control system. Within the country, stricter internal market 
monitoring and regulation are needed, as well as scaled up and 
dedicated investigative efforts directed at fighting the criminal 
syndicates behind the ivory trade. Chinese nationals based throughout 
Africa have become the principle middleman traders behind the large 
illegal movements of ivory to Asia, and the advent of Asian criminal 
syndicates in Africa's wildlife trade stands as the most serious 
contemporary challenge. China needs to collaborate with African 
counterparts to address the growing Chinese dimension in Africa's 
illegal trade in ivory and other wildlife products.
    Thailand also has one of the largest unregulated domestic ivory 
markets in the world. But unlike China, until recently Thailand has 
consistently failed to meet CITES requirements for internal trade in 
ivory. Interdictions of several large shipments of ivory have occurred 
at Thailand's ports of entry in recent years, and this past spring the 
two largest-ever seizures were recorded in Thailand, yielding seven 
tons of illegal ivory in a month. After intense pressure from CITES, 
including the threat of sanctions, the Thai Government recently passed 
long overdue new laws and regulations as part of a National Ivory 
Action Plan. Reforms have been desperately needed for a system that 
has, until now, allowed hundreds of retail ivory vendors to exploit 
legal loopholes and offer tens of thousands of worked ivory products to 
tourists and local buyers. CITES data underscore the global reach of 
Thailand's ivory markets as more than 200 ivory seizure cases have been 
reported by other countries regarding illegal ivory products seized 
from individuals coming from Thailand over the last 3 years. As a 
result of the new laws, Thai citizens have brought forward a massive 
200 tons of ivory to be registered with officials. Questions remain 
about how Thai officials will deal with this situation, given the 
number of pieces this represents and the likelihood that much of the 
ivory is from illegally poached African elephants. Given the presence 
of U.S. Fish and Wildlife Service Law Enforcement and State Department 
Bureau of International Narcotics and Law Enforcement on the ground in 
Bangkok working on wildlife trafficking, we hope that U.S. agencies are 
actively engaging with their Thai counterparts to address the current 
situation, and we commend the chairman and ranking member for their 
leadership of a recent letter to Presidential Task Force cochairs to 
this effect.
    We also encourage the U.S. Government to continue to be a strong 
voice at CITES ensuring that the Thai Government delivers on its 
commitments and responsibilities to that treaty. Last year, WWF ran a 
campaign to generate public pressure on the Thai Government to take 
serious action on illegal ivory trade in a way that would not violate 
military restrictions on political organizing and in a culturally 
appropriate manner. The campaign, called ``Chor Chang,'' condemned the 
killing of elephants for ivory by asking supporters to symbolically 
remove the letter representing elephant, ``Chor Chang,'' from their 
names and sharing this on social media. The campaign tapped into 
Thailand's ancient affinity with the elephant and creatively utilized 
this deep cultural attachment to illustrate what an enormous loss it 
would be if elephants disappeared. Nearly 1.3 million people and over 
50 influential celebrities, politicians and bloggers participated, 
taking the campaign viral.
    Next to China, Thailand's domestic ivory market is perhaps the 
second greatest driver of illegal trade in ivory at the present time. 
After years of inaction, there are promising signs that Thailand may be 
taking an active role in addressing this problem. Culturally tailored 
approaches to demand reduction along with continued international and 
bilateral engagement, particularly through CITES, will be needed to 
ensure Thailand follows through on effective implementation and 
enforcement of the long-overdue legal reforms to its ivory markets.
              threats to security, stability & rule of law
    Poaching, by definition, entails armed individuals, often gangs, 
operating illegally in wildlife habitats which, in many cases, are 
protected areas that attract tourists and contribute to the economic 
development of many African countries. Where poaching is particularly 
entrenched and pernicious, armed militias from one country temporarily 
occupy territory in another country, destroying its wildlife assets and 
posing serious national security threats on many levels. Every year, 
throughout Africa, dozens of game scouts are killed by poachers while 
protecting wildlife. Poachers who profit from killing elephants and 
harvesting illegal ivory may also have ties to criminal gangs and 
militias based in countries such as Sudan (in the case of Central 
Africa) and Somalia (in the case of East Africa). Long-standing 
historical ties between slave trading, elephant poaching and the tribes 
that form Sudan's Janjaweed militia (responsible for many of the worst 
atrocities in Darfur), mean that illegal ivory may well be being used 
as powerful currency to fund some of the most destabilizing forces in 
Central Africa. In parts of West and Central Africa, the situation has 
been dire for some time, and severe poaching is already resulting in 
the local extinction of elephant populations. In the past few years, 
the situation has grown even worse as we have seen a disturbing change 
in the sophistication and lethality of the methods being used by the 
poachers, who are frequently well armed with automatic weapons, 
professional marksmen and even helicopters. In most cases, poachers are 
better equipped than the park supervisors and guards. In some 
instances, they are better equipped even than local military forces.
    Leadership in the region clearly understands the links between 
wildlife crime, peace and security and economic development, as 
demonstrated during the high-level round table on the links between 
wildlife crime and peace and security in Africa organized by the French 
Government on December 5, 2013 (one day before the Elysee Summit on 
Peace and Security in Africa). Central African governments also agreed 
to the language of the final Declaration \12\ of the London Conference 
on Illegal Wildlife Trade, convened by the U.K. Government from 
February 12-13, 2014, at Lancaster House, London to inject a new level 
of political momentum into efforts to combat the growing global threat 
posed by illegal wildlife trade.
                    economic growth and development
    Wildlife resources, if properly protected, can form the basis for 
future economic growth in impoverished, rural regions of the continent. 
In several African and Asian countries, this is already happening. As 
described above, Namibia's community-run ``conservancies'' allow local 
communities to manage their own wildlife resources and derive profits 
from ecotourism opportunities and sustainable use of wildlife. In 
Central Africa, a wildlife-based economic success story can also be 
told about Virunga National Park--Africa's oldest national park and one 
of its most important in terms of biodiversity. It is also the 
continent's best known park, because it is home to the last remaining 
mountain gorillas. Gorilla-based tourism is a huge economic engine: the 
annual revenue earned directly from gorilla tourism in the Virungas is 
now estimated at 3 million USD. When combined with the additional 
income received by related business, such as hotels and restaurants, 
the total figure may exceed 20 million USD shared between Rwanda, 
Uganda, and DRC. In Rwanda alone, the number of tourists visiting the 
country from 2010 to 2011 increased 32 percent and tourism revenues 
rose an amazing 12.6 percent, from $200 million to $252 million in 
2011--much of it due to mountain gorillas and other eco-tourism 
opportunities.
    Through USAID, the U.S. is currently helping to support additional 
community-based wildlife conservation efforts in other priority 
landscapes for wildlife, including southern Africa's Kavango-Zambezi 
Transfrontier Conservation Area (KAZA)--the largest transboundary 
conservation area in the world, encompassing 109 million acres, 
crossing five southern Africa countries (Angola, Botswana, Namibia, 
Zambia, and Zimbabwe), and home to nearly half of Africa's remaining 
elephant population. Given its rich wildlife resources, the KAZA 
partnership in particular has the potential to improve the livelihoods 
of the 2.5 million people who live in the Okavango and Zambezi river 
basin regions through Community-Based Natural Resource Management 
(CBNRM) approaches that ensure that local communities benefit 
economically from wildlife on their land, through conservation of 
animals and their habitats and the creation of a world-class tourism 
experience while also bringing southern African countries together to 
more effectively combat international wildlife trade and poaching 
through information-sharing, joint patrols and surveillance, as well as 
harmonized law enforcement policies.
    The Namibian model of CBNRM offers lessons that may be applied 
throughout the region, and the interest of multilateral donor agencies 
like the GEF in supporting wildlife conservation linked to economic 
development in KAZA is lending additional momentum. Even as we seek to 
stop the bleeding of elephant populations in Central and Eastern 
Africa, it is important that we consolidate our gains in southern 
Africa and take strong steps to ensure that this last great stronghold 
of Africa's elephants does not become its next battlefield and to 
contain the rhino poaching that has begun to spread beyond its main 
locus in South Africa. As always, continued U.S. Government support is 
critical for programs such KAZA, which help to create clear economic 
benefits for people to conserve wildlife, thereby incentivizing locally 
driven conservation efforts and building immunity to poaching and 
wildlife trafficking. They are an essential part of the long-term 
solution to the current crisis.
                        the u.s. government role
    The U.S. Government has demonstrated historic leadership on the 
issue of wildlife trafficking, at all levels. Long an international 
leader on the issue, the U.S. has, since 2012, helped to elevate 
attention on wildlife crime both at home and abroad to a new apex. The 
President's issuance of Executive Order 13648 and the creation of the 
National Strategy for Combating Wildlife Trafficking by a Presidential 
Task Force led by the Departments of State, Interior and Justice are a 
profound recognition by the administration of the importance of this 
issue and the will to address it. This U.S. leadership has also set the 
stage internationally, putting the issue firmly on the agendas for our 
international partners, including in fora such as APEC, ASEAN, UNODC, 
the U.N. Security Council and--with renewed energy and impressive 
success--at the most recent CITES CoP. And the leadership of many in 
Congress, from both sides of the aisle, has already helped to raise the 
profile of the issue and strengthen U.S. law to address it, and is 
providing resources and oversight to ensure that the U.S. strategy is 
implemented efficiently, effectively, and with the concerted energies 
of all relevant U.S. agencies in a whole-of-government approach. This 
whole-of-government approach should continue, guided by the strategy, 
and can serve as a model that other countries will emulate to ensure 
that they are bringing to bear not just their conservation resources 
and expertise to solve this problem, but also the full range of law 
enforcement, security, intelligence and diplomatic resources guided by 
high-level leadership and political will.
Diplomatic Recommendations
    The U.S. Government should continue to raise the issue of wildlife 
trafficking at the highest levels with key countries and in 
international forums and should strive to insert wildlife crime into 
the agendas of relevant bilateral and multilateral agreements where it 
is not yet addressed and where the work of those agreements could 
benefit the fight against wildlife trafficking (as was done in 2013 
with the U.N. Commission on Crime Prevention and Criminal Justice and 
at APEC in 2012). The U.S. Government should also continue to use its 
considerable diplomatic influence and technical capacity to work with 
the primary consumer countries to shut down the illegal trade and 
should ensure that countries are held accountable at this January's 
CITES Standing Committee meeting for applicable decisions made at the 
last CITES Conference of the Parties. Recent steps by China are 
encouraging and need to be institutionalized and sustained through the 
U.S.-China Strategic Economic Dialogue. Thailand must effectively 
implement the major legislative and enforcement reforms it has recently 
put in place to control its internal ivory market. And Vietnam must 
take action at all levels to enforce CITES rhino trade restrictions and 
launch public initiatives to reduce demand. These countries must be 
held accountable to CITES and the global community if they fail to live 
up to their international commitments. To drive needed action, the U.S. 
should consider application of the Pelly amendment and the sanctions 
process that law offers in cases where CITES continues to be seriously 
undermined. The Pelly amendment has been used sparingly but 
successfully in the past to achieve swift reforms in countries where 
endangered species trafficking was completely out of control, 
specifically for the illegal trade in tiger and rhino parts in Taiwan, 
China, South Korea, and Yemen. Each of those countries made major 
positive wildlife trade control improvements as a result of action 
under the Pelly amendment and parallel action through CITES. The ivory 
and rhino trade today is as serious as any wildlife trade issue in the 
past and warrants equally serious measures. The U.S. should also 
continue to support efforts to elevate the issue within the U.N. 
system, including the imminent passage of a UNGA resolution on wildlife 
crime, as well as robust implementation and accountability of that 
resolution once passed.
Anti-Poaching Recommendations
    The men and women on the front lines who put their lives on hold, 
and often their lives on the line, in order to prevent wildlife crime 
are the thin green line between the poachers and the animals they wish 
to kill. In order to effectively reduce poaching, we need to ensure 
that they are up to the task when they are confronted with today's 
poaching threats, which are more dangerous than they have ever been and 
require more skills than have often been expected in the past. There 
are two ways to look at antipoaching; the short-term emergency response 
and the long-term solution. In terms of the emergence response, 
effective on-the-ground protection requires: suitable operational 
support, including trained rangers; knowledge of patrol tactics; access 
to equipment and transportation; and adaptive management systems, such 
as that provided by the SMART \13\ conservation tools. In order for on-
the-ground operations to be efficient and proactive they need to be 
supported by intelligence, and this can be gained through community 
relationships, informant networks, on-patrol interviews and through the 
use of surveillance technology. Interdiction also needs to lead to 
prosecution so that the cost of breaking the law outweighs the 
benefits, requiring a whole-of-government approach even at the local 
level. Crucially, the best antipoaching operations are focused on crime 
prevention and not violator interdiction. This means working with 
communities through a community policing framework where there is a 
strong partnership between rangers and communities. These approaches 
are enhanced where communities see direct benefits between conservation 
and economic development. It is an integrated approach such as this 
one, which WWF has helped to foster through its program in Nepal, which 
has seen Nepal achieve zero rhino and elephant poaching in 3 of the 
last 4 years.
    We know what works and how to establish these systems at the local 
level. But we have also been here before: in the 1980s, 
conservationists worked to abate the last poaching crisis affecting 
elephant, rhino and tiger populations. We successfully abated that 
crisis, and with a concerted effort, we can abate the current one as 
well, but what we have not been able to do is get ahead of the curve to 
prevent the next crisis from happening in the first place. To do this 
takes a more strategic, long-term approach; one of sector reform to 
make being a ranger a profession one aspires too. In order to do this 
we need to:

  <bullet> Establish accredited higher education training centers that 
        produce professionally trained rangers--in a similar fashion to 
        police academies, no ranger should be hired without receiving a 
        professional, accredited qualification;
  <bullet> Provide rewards and promotions based on performance and set 
        competencies--this means transforming the human resource 
        systems in many ranger departments;
  <bullet> Empower rangers with the legal authority to detain and 
        arrest suspects, to process a crime scene and present 
        admissible evidence in court, and to legally defend themselves 
        in life threatening situations;
  <bullet> Ensure rangers are reasonably protected by the law when they 
        are doing their duty; provide adequate insurances to rangers 
        and their families;
  <bullet> Ensure outposts provide shelter, basic amenities, 
        communications equipment and medical supplies.

    The long-term solution to the poaching crisis is to reform the 
ranger force just like the international community supports reform in 
other sectors such as police, education, and health. Professionalizing 
the ranger force will support rule of law, provide an additional layer 
of good governance and provide protection for environmental services 
including biodiversity, timber, fisheries, watersheds, and carbon 
stocks. The U.S. Government should consider how it can support the 
promotion of global standards and training and accreditation systems to 
achieve the transformation outlined above, whether through existing 
U.S. institutions, such as the State Department-run International Law 
Enforcement Academies, or through partnerships with national or 
regional training institutions that can help foster ``ranger 
academies'' and the long-term professionalization of the wildlife law 
enforcement sector in partner countries. Where suitable, the U.S. 
Government should also explore possible collaboration and/or assistance 
by the Department of Defense/AFRICOM with those local forces tasked 
with wildlife and/or park protection as a mission in countries facing 
militarized poaching threats, whether through training opportunities, 
logistical support, or provision of equipment.
Anti-Trafficking Recommendations
    In implementing the U.S. strategy, the U.S. should focus 
significant efforts on disrupting and dismantling the illicit 
trafficking networks and crime syndicates that are driving the poaching 
and illegal trade, including advanced investigative and intelligence 
gathering techniques and bringing to bear the same sorts of tools used 
to combat other forms of trafficking, such as narcotics. As the 
narrowest point in the trade chain, traffickers offer the best 
opportunity to disrupt the flow of illicit goods, represent the 
highest-value targets for arrest and prosecution, and their arrest, 
prosecution and incarceration can serve as a strong disincentive to 
others involved in or hoping to involve themselves in the illegal 
wildlife trade. There is legislation currently pending in both the 
Senate--S. 27 introduced by Senators Feinstein and Graham--and the 
House--H.R. 2494 introduced by Representatives Royce and Engel--that 
would make large-scale wildlife trafficking a predicate offence to 
money laundering, racketeering, and smuggling offenses under title 18 
and provide U.S. law enforcement with the same tools they have 
available to go after other forms of trafficking, including narcotics. 
WWF strongly supports both of these bills and encourages committee 
members to consider cosponsoring S. 27 if they have not already done 
so.
    The U.S. should continue to support transregional programs, similar 
to Wildlife TRAPS and Operation Cobra/Cobra II/Cobra III, which 
coordinate joint law enforcement actions between demand, range, and 
transit states and focus on multiple points in the illegal trade chain. 
We would also encourage a focus on enhancing port and border security 
at key transit points (e.g., seaports in Southeast Asia and East and 
West Africa), including border detection efforts and investigative 
techniques. The expertise of U.S. Customs and Border Protection and 
others at the Department of Homeland Security could be of value in 
these efforts, and their active involvement should be encouraged. The 
U.S. should dedicate serious efforts to enhancing the prosecutorial and 
judicial law enforcement capacity in priority countries in order to 
ensure successful convictions and incarcerations of serious wildlife 
traffickers, including anticorruption measures. The U.S. should support 
development and dissemination of new technologies and tools, including 
DNA testing of specimens, computer tracking of shipments, SMART or 
similar patrolling software, the International Consortium to Combat 
Wildlife Crime's (ICCWC) Forest and Wildlife Crime toolkit, and new or 
repurposed technologies that can be developing in partnership with 
innovations labs at the Department of the Defense.
    The U.S. Government should also continue to improve wildlife crime 
intelligence-sharing and cooperation in evidence-gathering between law 
enforcement, security and intelligence agencies of the U.S. Government, 
including the Department of Defense (on security linkages) and the 
Department of the Treasury (on illicit financial flows). In many 
countries in Africa and Asia there are not proactive intelligence 
collection and analysis to direct enforcement efforts to tackle 
organized crime poaching and trafficking in wildlife like rhinos. This 
is a major flaw that could be remedied by training, provision on 
intelligence analysis software and resources to allow enforcement staff 
to spend time on collection, input and analysis of intelligence. NGOs 
like TRAFFIC are gathering and analyzing information to provide law 
enforcement agencies to assist their priority setting and for 
operational use, but governments should be doing this themselves.
                               conclusion
    We are once more at a crisis moment for elephants and rhinos and 
numerous other species targeted by the illegal wildlife trade. U.S. 
policymakers at the highest level have provided outspoken leadership 
and strong statements of commitment and action, and these have played a 
large part in galvanizing global action around this issue in an 
unprecedented way. We must continue to implement strategies and plans 
to combat wildlife trafficking with concerted efforts on the ground, 
energetic diplomatic engagement, and the full range of law enforcement 
tools. The United States Government at all levels has demonstrated its 
willingness to lead on this issue and to provide expertise and 
resources to back up its commitments. Such global leadership by the 
U.S. will continue to be pivotal to solving this crisis and protecting 
our planet's wildlife heritage over the long-term. WWF is redoubling 
its efforts to combat this threat. We are heartened and grateful to see 
the U.S. Government doing the same. Working in partnership with other 
governments, civil society, the private sector, and communities on the 
front lines, we can help turn the tide and bring an end to the global 
poaching crisis.
    On behalf of WWF, we thank you for the opportunity to provide 
testimony to the subcommittee. We thank you for highlighting this 
issue, and we look forward to continuing to work with Congress and the 
administration to address this crisis.

----------------
End Notes

    \1\ www.dni.gov/files/documents/
Wildlife_Poaching_White_Paper_2013.pdf.
    \2\ http://transcrime.gfintegrity.org/.
    \3\ TRAFFIC and the Pew Environment Group analysis produced for the 
2011 meeting of the UN FAO's Committee on Fisheries (COFI).
    \4\ South Africa's illicit abalone trade: An updated overview and 
knowledge gap analysis, 2014, TRAFFIC.
    \5\ Background report on illegal trade in elephant, rhino, big cats 
and pangolins, 2013, TRAFFIC.
    \6\ Seizures of Tortoises and Freshwater Turtles in Thailand 2008-
2013, 2014, TRAFFIC.
    \7\ http://www.iucn-csg.org/index.php/vaquita/.
    \8\ www.dni.gov/files/documents/
Wildlife_Poaching_White_Paper_2013.pdf.
    \9\ http://wwf.panda.org/?uNewsID=203098.
    \10\ Maisels F, Strindberg S, Blake S, Wittemyer G, Hart J, et al. 
(2013) Devastating Decline of Forest Elephants in Central Africa.PLoS 
ONE 8(3):e59469. doi: 10.1371/journal.pone.0059469.
    \11\ http://namnewsnetwork.org/v3/read.php?id=180566; http://
www.sanwild.org/NOTICEBOARD 
/2011a/
Elephant%20poachers%20use%20helicopter%20in%20Mozambique%20National%20Pa
rk. 
HTM; http://www.savetheelephants.org/news-reader/items/selous-the-
killing-fields-40tanzania41. 
html.
    \12\ https://www.google.cm/
?gws_rd=cr&ei=Gb90U4z_Eo7S4QSdpYGICA#qDeclaration+of+the 
+London+Conference.
    \13\ Spatial Monitoring and Reporting Tool: a GPS-based law 
enforcement monitoring system that improves the effectiveness and 
transparency of patrols, www.smartconservationsoft 
ware.org.

    Senator Flake. Thank you and thank you all and thank you 
for enduring the interruption.
    Mr. Saunders, we spoke before in my office, and we talked 
about the model that you have there. And it is interesting. 
Some of the community-based models elsewhere, the community 
derives significant revenue from tourism or other means. That 
is not the case necessarily with what you are talking about. 
That will come hopefully later and is a part of the reason it 
is being done. But what these communities get is security.
    Tell us how wildlife trafficking diminishes security in 
these communities and why this model works?
    Mr. Saunders. Yes, thank you.
    The area that we operate in, in the Tsavo ecosystem, is a 
very remote and harsh area. There is very little government 
police presence and a lot of lawlessness, and that is an issue 
that any country has a great deal of difficulty in addressing.
    What we are doing is we are working with the community and 
galvanizing them together. They are a seminomadic community of 
pastoralists. And of course, when you have got a seminomadic 
community, it is very easy to put pressure on them from outside 
agencies because there is no cohesion. What the conservancy has 
done is brought the community together and given it cohesion 
and given it strength, and in this way we have assisted through 
that cohesion, gaining a much more security environment. And 
the communities themselves are now a very robust community when 
it comes to being the challengers of radicalization and other 
external forces, including corruption.
    I mean, yesterday we had a conference at CSS and everybody 
was pretty sound on the idea that one of our biggest enemies is 
corruption, and by galvanizing the--and I keep saying this--
rather than the community, let us say the electorate because 
communities are impoverished people. The electorate is a 
powerful individual. And so the galvanizing of the electorate 
has now given communities, the ones at risk, now a much 
enhanced sense of security.
    Senator Flake. Mr. Froment, you had mentioned that the 
model that you have, this public-private partnership where you 
manage the parks, is better than government management of the 
parks. Why is that? Why does this model work. You mentioned 
that it leads to greater accountability. How is that so?
    Mr. Froment. The main reason it works is because firstly, 
we get the mandate from the government and we are accountable 
for this. So we have to react to any problem arising. And the 
when we face the issue of the security of the communities, we 
need to react to that.
    The second very important point is that you cannot be in an 
area for a very long period of time without developing your 
relationships with all of these communities, and when the 
community has a problem, you need to address it.
    Take for example Garamba, where the problem was security. 
We addressed the security issues, but in other areas where 
there were also other problems. In doing so we can address 
these others and slowly bring the community inside the model.
    The second element is that we have the capacity to develop 
the team we are working with so we are not depending solely on 
the people that are positioned by the government. We can also 
train and build our skills and start having professional teams 
who can address the different problems themselves.
    And the third element is that because we have the 
responsibility in the long term toward the government, we are 
to find some funding solution. One of these solutions is the 
resource you have inside the park itself, and we need to 
develop that with all the effects in terms of economic and 
social development possible around and based on the resources 
of the park.
    In one of the parks African Parks is managing, for example, 
in 4 years' time, we have generated the revenue that can 
sustain the park. So you build the resource and you put a value 
on it, and you can use that for the park and the community.
    Senator Flake. Thank you.
    Dr. Wittemyer, you mentioned the main transit points you 
found from the most recent poaching is Mombasa and Dar es 
Salaam. Has that changed over time? Does that shift depending 
on where things are coming from, or is that the main transit 
points where it is easiest to get to Asia, the markets there? 
Or what explains that phenomenon?
    Dr. Wittemyer. Yes, they have shifted to some extent. It 
appears this is related to the locations of source populations 
that are harvested. The greatest volumes of ivory are leaving 
from the closest port to these sources. We have also seen 
several West African ports and South African ports be the 
source of significant trafficking or exit points for ivory from 
Africa.
    But it is difficult to pinpoint why we are seeing specific 
trafficking routes. It is really an information gap for us as 
to what about these two locations is allowing huge, really 
massive volumes of ivory to flow off the continent from those 
ports. My assumption would be that there has been very little 
effective policing, and, therefore, it is seemingly a low-risk, 
easy pathway for this ivory to leave. So putting barriers up on 
these identified points of exit are really critical actions to 
tackle the ivory trafficking chain.
    Senator Flake. Well, thank you.
    Ms. Hemley, I found your testimony really interesting, 
going country by country or issue by issue there. And with 
regard to Namibia, I happened to be there in 1989-1990 when the 
constitution was drafted where they did have a strong 
conservation element to it, a commitment there, and it has paid 
off. This community-based approach has worked there.
    What about Botswana? What are we seeing there? We have to 
see some of the trends that we see in South Africa and Namibia, 
or what makes Botswana different? They have had pretty stable 
populations there.
    Ms. Hemley. Well, Botswana has long been a stronghold for a 
lot of wildlife species, as you no doubt know. And a stable 
government and generally good governance has certainly 
contributed to that end, a relatively strong economy.
    Making it a high priority, high-end tourism certainly has 
led to generally well managed parks with revenues going into 
the parks, has made that, I think, effective.
    I understand there have been some recent changes in 
Botswana related to community-based conservation that we are 
looking into that may be placing less emphasis on the 
importance of communities, which would be a bit of a concern in 
our view, given the model in Namibia. Thus far, Botswana has 
not had the poaching that we have seen in South Africa, with 
the emphasis being on rhinos in South Africa. But with the huge 
herds of elephants in the north of Botswana, certainly that is 
an area that is like Namibia we are starting to see a bit of 
poaching around the borders in northern Botswana that we need 
to help ensure do not get succumbed to the major poaching that 
we are seeing in East Africa.
    Senator Flake. Well, thank you.
    Ranking Member Markey has generously deferred to Senator 
Udall for questions first.
    Senator Udall. Thank you, Senator Markey, and thank you, 
Chairman Flake. This is a very important hearing, and I 
appreciate both of you working together on this and bringing 
these issues forward.
    I remember I was visiting with Ginette a little bit. 
Senator Kerry, when he chaired this committee, I think 3 years 
ago had Ian Hamilton from Save the Elephants here, and it was a 
very emotional hearing. And all of us feel strongly. You look 
at these charismatic animals and you just say how is this 
happening to Africa across all of these countries.
    Looking back at that hearing and what has happened over the 
3 years, are we making a dent? Is there progress? Is there 
success? I mean, what is it you think we should be doing to 
further this?
    I am, later in the month of August, going to go to 
Tanzania. I hope to get out into the bush and get a chance to 
visit with some of the officials out there, and I hope to 
exchange ideas with you when I get back in terms of where we 
are headed.
    But I guess the big overall question is from that last 
hearing--some of you may, or may not, have been aware of it, 
but just think back 3 years ago. I mean, where are we? And what 
is succeeding? I do not want this to just be a downer here. You 
have talked about the models. Jeff has brought out the models 
and maybe you an elaborate a little more on that. The question 
is to all the panelists here.
    Dr. Wittemyer. Yes. I might just follow up. One thing that 
has happened since that time is we have had really definitive 
data on poaching hotspots and trafficking hotspots that are 
helping to triangulate and focus our attention on the problem 
areas.
    I also think when that hearing occurred, we were on the 
upsurge of poaching, and depending on what records you are 
looking at now, it looks like we may be plateauing. In our 
ecosystem at that time--we were having 8 to 10 percent of the 
population shot out a year. We are now down to levels we have 
not seen since 2008. The elephant population increased for the 
first time in 6 years in 2014. And so we are seeing definitive 
successes in different areas.
    We are also seeing massive problems, and Tanzania has been 
the real disaster has been recording. Any engagement you can do 
with the Tanzanian Government would be critical--I just want to 
reiterate the scale of killing there--50,000 elephants--that is 
from aerial census data--have been killed in that country in 5 
years. That is industrial scale poaching. That is massive 
volumes of ivory that are being funneled out of that country, 
and there are very few arrests. There is very little action in 
relation to this well recognized problem. There is constant 
rhetoric by the Tanzanian Government that they are going to 
address this problem. But we have seen little action on the 
ground. And I think diplomatic pressure by the U.S. Government 
can be beneficial in this context. What is going on there is a 
disaster, and any attention, any help you can bring to that--
there must be knowledge within the government body of what is 
happening and why. And anything you can do to elicit action 
would be greatly appreciated.
    Mr. Saunders. Can I just add to that actually? I often get 
asked why in Kenya we do not have any wildlife champions in our 
Parliament. And it is a continual question we get asked. I 
think quite simply is that in Africa, as far as the Members of 
Parliament, our Parliament, are concerned, is we will not get 
any wildlife champions unless wildlife becomes an issue that 
can win votes. And that is not going to happen until there is a 
value for wildlife amongst the electorate. And so the community 
approach by creating a higher value to the electorate is the 
way and the pathway that we can start to gain more political 
champions. All of the community-based organizations in Africa 
that are doing that, they are the galvanizing communities that 
are giving, again, the electorate the power and an 
understanding that if they support wildlife, they get security. 
They get a chance to build a rural economic bit of base for 
themselves. Then we will start to get that traction in our 
Parliaments.
    But until we get to that phase, where we are going to be 
pushed to try and get political traction--we might get 
political rhetoric, which is positive, but when it comes to 
voting, if it is not going to keep people in power, they are 
not going to put their time and energy into it. They would 
rather put it on other areas such as food and water, although 
it is still linked. So talking from that community perspective 
and empowering the electorate, I believe that is one of the 
many areas I think we need to concentrate on.
    Senator Udall. So, Ian, what you are talking about is you 
are talking about where the community really sees it in their 
interest to be preserving the entire ecosystem, the animals, 
and that there is an economic benefit that is essential here. 
And really, it is driving home the fact that if you have a 
sustainable ecosystem, it is going to provide sustenance for 
the community. But you need to drive all of those things home, 
and then I think people working in and around the parks and 
seeing the benefit of tourism, all of that, I think that is 
what your partnership does--does it not--is to try to bring 
that home.
    Mr. Saunders. Yes. I mean, in our area, we--and Governor 
Adato, who is sitting behind me here who is the county governor 
of where the conservancy is, is proof that we have got support 
at every single level. So from herdsmen to local government all 
the way up to the governor himself.
    And we do not have a tourism option in that part of Tana 
River because of the destabilized element. So the most 
important element is livestock. So we are looking at livestock 
to provide a firm economic base into the future. When that 
happens, tourism will come as a cherry on the cake. But 
culturally livestock is at the center of their life, and if we 
can enhance that, it provides stability because people start to 
gain a firmer economic base. And then it becomes a political 
issue. Then people want to be aligned to it, and that is when 
we start to get results I think.
    Ms. Hemley. Could I just add a bit to the conversation 
here? You asked what has happened in the last 3 years that is 
good, where we are seeing some progress. And George mentioned 
possibly the plateauing of poaching. We will see.
    Three important things internationally have happened that 
we believe are helping but we need to sustain.
    Congressional appropriations that have increased. There is 
more resources going to the field to address this issue. That 
is absolutely key.
    President Obama launched his national strategy to combat 
wildlife trafficking. That has had a huge impact globally in 
terms of visibility, getting attention at the highest levels of 
government around the world.
    And we are beginning to also see on the demand side the 
attention being paid in key consumer markets in China you heard 
about, in Thailand as well, in Vietnam for rhino horn, where as 
a couple of years ago some of those governments were in denial 
that there was a problem. They are acknowledging it now. They 
are beginning to make commitments to cracking down and 
hopefully eliminating markets such as for ivory in China.
    Through CITES, the Convention on International Trade and 
Endangered Species, there has been a process of targeting the 
problem countries. There were 8 or 10 countries identified that 
were problematic that were required to put together full plans 
for addressing these issues. That alone I think has triggered 
great attention both in Africa, as well as in Asia, on demands. 
So we have seen a lot of momentum that I think has been 
critical to the progress that we are beginning to see.
    Senator Udall. Great. Thank you.
    And thank you, Senator Markey. Thank you very much.
    Senator Flake. Let me just say what a pleasure it has been 
to work with Senator Markey on this. This is an issue that we 
both felt needed to be addressed. Do you want to make any 
opening remarks as well?

             OPENING STATEMENT OF HON. ED MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. If I may. Thank you, Mr. Chairman, for 
holding this hearing. You are right. This is an issue which is 
near and dear to both of our hearts, and I think it is a timely 
and very important hearing. And it is critical that we keep a 
spotlight on this.
    And I will just say briefly as an opening that poachers 
with ties to global organized crime syndicates and violent 
groups continue to cross international borders to kill 
elephants and rhinos for their tusks and are better equipped 
than the park rangers who are charged to protect them. Park 
rangers have been ambushed, attacked, lost their lives in the 
line of duty after encountering poachers armed with weapons or 
military grade weaponry and technology.
    Last month, the U.S. Fish and Wildlife Service launched a 
campaign on social media when the agency crushed 1 ton of 
illegal ivory in New York City's Time Square to send a message 
to wildlife traffickers and raise awareness about the 
importance of these issues. Hashtag ``ivory crush'' was tending 
all over Twitter and Facebook, and I think it just is a 
reflection of how important people in our country and the world 
see this issue.
    Wildlife poaching and trafficking is a global problem but 
one that has local solutions. This is not just a problem for 
African nations. It is also an American problem. We are the 
second-largest market for illegal wildlife products like ivory 
and other precious goods.
    China recently announced it will crack down on illegal 
ivory trade, but has stated they will not act alone. They are 
looking to the United States and other nations to partner on 
the issue of illegal wildlife trafficking.
    This is a bipartisan issue that Congress can and should 
work together to put solutions in place. And that is my pledge 
to Senator Flake, to work with him in that fashion.
    The implementation plan released by the President's Task 
Force on Combating Wildlife Trafficking is an important step 
forward to developing solutions. And I am particularly 
encouraged by efforts to use innovative technology in solving 
this problem. I look forward to working on legislation that 
would complement the administration's actions and supporting 
our African policies.
    So let me begin with you, if I may, Ms. Hemley. In 2012, 
Google donated $5 million to your organization to provide 
technology toward conservation and antipoaching efforts through 
the Global Impact Awards. This technology assists in monitoring 
the habitats and trafficking routes of wildlife and 
additionally provides high-tech gear for rangers to ward off 
poachers.
    Has the technology been successful in reducing poaching 
capabilities?
    Ms. Hemley. Yes, Google did provide a generous grant for us 
to test and pilot some new technologies.
    You know, it is too soon to tell if we have found solutions 
that can be scaled fully, but we are in some interesting tests 
in both Namibia and Nepal with drones to help in aerial 
monitoring of poaching, but that has often got a lot of 
attention, that aspect of the funding. There are a lot of other 
technologies that are as important to help out, and we need to 
look at all of them, using infrared cameras in new ways, using 
new kinds of software for collecting, analyzing data. It has to 
all be integrated into the systems. And so we have got a 
variety of efforts underway to do that. We hope to know in the 
next 1 to 2 years what can be scaled and taken out to the field 
in a practical way. One of the challenges we have seen in these 
remote areas is when you are using IT, getting cell phone 
coverage can often be a limitation. So we are talking to some 
of the cell phone companies here in the United States to figure 
out ways you can get connectivity in the national parks that is 
critical----
    Senator Markey. You should talk to Google about that as 
well.
    I think if you set the example you can show how technology 
can work, then maybe we can find other companies to partner 
with you.
    Ms. Hemley. Absolutely.
    Senator Markey. The next step comes when you go back again 
after proving the success of the use of technology and trying 
to get more wireless technology.
    Dr. Wittemyer, technology is important but science is 
important as well. So could you talk a little bit about the 
role which science plays in helping to create an antipoaching 
environment?
    Dr. Wittemyer. Yes. I summarized the scientific data that 
we have available on this problem today. Science has been the 
foundation with which we have been able to actually measure the 
scale of this problem, key in on the critical points, the 
critical populations under threat, some of the aspects of 
trade, although there are a lot of black boxes in regards to 
trade routes. And science is fundamental to continued 
monitoring and understanding, identifying where solutions are 
working and where they are failing. Without proper monitoring, 
we are not able to identify what we are having successes with.
    One technological solution I wanted to speak to that we are 
doing is through radio tracking data of animals. And right now, 
actually on my computer we can visualize elephants moving 
around in different parts of Africa, and we are using this to 
help deploy antipoaching assets to identify when elephants 
enter danger zones. Flagging entrance into an area of interest 
is called geofencing. When an elephant enters a farm and starts 
crop raiding, we can actually get a GMS message on my cell 
phone that says this elephant entered this parcel and is likely 
crop raiding.
    These type of technologies enable rapid responses to 
problems, help us to be much more effective in our deployment 
of assets, especially when we are all asset-limited. And so 
technology has a big place, and we actually have leveraged 
private money to help develop these areas. So I agree 
technology is a key.
    Senator Markey. Science is the key, your science and 
technology.
    Dr. Wittemyer. Right.
    Senator Markey. So I want to come back on the elephants, 
come back over to you, Ms. Hemley. We have the Convention on 
International Trade in Endangered Species. It gives us an 
opportunity to think about diplomacy, how we are going to work 
together. But yet, that convention was not successful in 
stopping the sale of 24 elephants from Zimbabwe to China. So 
talk about that and what needs to be done in order to ensure 
that there is an enforcement capacity here to protect these 
very precious resources that are diminishing by the day.
    Ms. Hemley. We were just talking about that issue actually 
in the taxi over here. That issue has us deeply concerned. The 
permit to export those 24 live, young elephants was granted. On 
the face of it, it is supposedly in compliance with the CITES 
requirements. But in our view, other issues need to be 
considered. And we know that Zimbabwe has had very serious 
issues with elephant population numbers being reduced by poor 
management and poaching in the conservancies there. And so we 
share your concern and we would like to see more done.
    Senator Markey. So give us a recommendation in terms of the 
enforcement tools that you would like to see put in place or 
the enforcement tools that are already in place and how you 
would like to see them enforced. How can you give us the 
instructions we need in order to act in a way that puts some 
real teeth----
    Ms. Hemley. Well, the Fish and Wildlife Service now has a 
ban in place for the import of sport trophies from Zimbabwe, 
which is a good thing because of that management. So they have 
taken the action because of the concerns there.
    Diplomatic pressure to Zimbabwe--we know it is a 
complicated equation diplomatically with that country now. But 
they cut a deal with China basically. And international 
pressure and publicity over this issue is certainly something 
we can do and help with.
    But the CITES requirement in this case we do not believe 
goes far enough into looking at the ultimate potential impact 
of the removal of those animals from the populations.
    Senator Markey. Thank you.
    Dr. Wittemyer, Mr. Saunders, both of your organizations do 
tremendous work. Are there enough U.S. resources put into this 
effort? Does USAID have enough resources to help you to 
successfully advance the cause? Could each one of you talk 
about the resource issue here and what is needed in order to 
really make this into a successful program?
    Mr. Saunders.
    Mr. Saunders. Yes. I mean, speaking from the Tsavo Trust 
perspective and probably on behalf of a lot of the other of our 
partners who work in a similar vein within what we call the 
human terrain really, working with the communities, the 
investment that the U.S. Government has made so far has been 
the major driver for developing new attitudes and a consensus 
on wildlife and its value within the communities.
    I think that one of the issues we deal with on a daily 
basis is that wildlife conservation is seen as sort of a 
foreign luxury, and to overcome that, we have got to give solid 
reasons and work with our neighbors in our communities to show 
that it actually is of benefit. INL money has helped us 
dramatically in doing that, and U.S. Fish and Wildlife money 
has helped us do that with our engagement areas. In the area 
that we work in, Malkalako area, there has not been an elephant 
poached in that area for 11 months to date. That area was the 
scene of the largest single poaching incident of elephants at 
its time of 13 elephants shot at one go, and that was the last 
major one. And that has all been all down to the ability to 
move assets into the area and change perspectives.
    But I think that the more that we can invest into that 
approach, the better it will be. And I am very pleased to see 
that the USAID has a fund for Amboseli and Tsavo.
    Senator Markey. Dr. Wittemyer, what would you recommend so 
that we can encourage U.S. agencies to do more in this area?
    Dr. Wittemyer. In full disclosure actually, we are not 
receiving U.S. funding in our activities.
    Senator Markey. Would you like to?
    Dr. Wittemyer. We would. Certainly we would, yes.
    Senator Markey. You do not think there is enough funding.
    Dr. Wittemyer. I do not think there is enough funding.
    And particularly, I think we need resources that are 
allocated to weak points in the conservation portfolio. USAID 
and U.S. Fish and Wildlife Service have done excellent work 
with U.S. funding on the ground in Africa. We are seeing 
evidence of other methods that can be implemented to great 
effect. I mentioned an example from the DEA that was successful 
in breaking up a criminal network in Kenya. The Presidential 
Executive order on wildlife trafficking helps to bring all that 
expertise together, but we have not seen appropriations 
directed to the most effective agents that could be game-
changers.
    And so one of the concerns I am hearing and that we are 
seeing is that some of those individuals with relevant 
expertise in the U.S. Government are very busy with other 
activities. The Department of Defense has a lot of 
responsibilities and putting wildlife trafficking on their 
docket in a way that they are actually engaged with this 
problem is difficult. Directed funding can help bring some of 
the expertise, give them the operational capacity to put their 
resources and expertise into wildlife trafficking where if you 
just add it to their docket of objectives, it will not be 
prioritized. You know, it is number 57 on the list. They cannot 
get to it. So I think some of these appropriations, 
particularly on intelligence-based criminal network disruption, 
would be really helpful for us right now.
    Senator Markey. Thank you, Mr. Wittemyer.
    Thank you, Mr. Chairman. An excellent panel. Thank you.
    Senator Flake. Thank you.
    Mr. Froment, can you talk a little about the differences 
between the challenges we face with forest elephants in Gabon 
and the DRC and the savanna elephants that we have been talking 
mostly about today? I know a lot of your work is in Central 
Africa. So you have a good grasp of this. The transit routes I 
assume are different in terms of the traffic out, probably West 
African ports. How are these issues different for us?
    Mr. Froment. I think that the forest elephants are more 
related to the problem of governance in the different 
countries, except in Gabon where they are starting to develop a 
huge national parks network and are trying to strengthen the 
wildlife department to react to the problem of poaching in that 
nation. For the other nations of the Central African countries, 
I see that most of the elephant populations have already been 
ripped off except a few elephants in Chad and DRC, a small 
pocket remaining.
    But the main threat in the savanna area is all the links 
with the Janjaweeds, with South Sudan and the Lord's Resistance 
Army, links we have also noted in Sudan. So these are the two 
major different aspects. And what is above the problem of 
Central African countries is that it is only a problem of 
governance and courage. And, everybody is involved in ivory 
trafficking and meat trafficking. Without addressing these 
questions, I think it will be quite difficult to change 
anything in this part of the world. And this is why I believe 
the sole possibility we have in that context is to really try 
to protect a few pockets with good management.
    Senator Markey. Thank you.
    Ms. Hemley, in South Africa, the big problem with rhino 
poaching--that is mostly white rhino or black rhino in Kruger 
Park?
    Ms. Hemley. Mostly white rhino.
    Senator Markey. And most of it makes it across the border 
into Mozambique I understand. That is a 250-mile border, a very 
difficult problem there. But you were saying that this amount 
of poaching could not be done without some acquiescence or some 
knowledge certainly at higher levels, and you have encouraged 
us to take this up with the South African Government.
    Has some of this been done? Are some of the problems being 
acknowledged at this point? What state are we in? When you have 
last year 1,200--this year I understand we are already over 700 
for the year. It will be the highest yet. We cannot go on very 
much longer like this. I think it is estimated there are--
what--about 20,000 left? So that does not take long to decimate 
and be at levels that we were at years and years ago. So what 
level are we at right now with South Africa?
    Ms. Hemley. We know that South Africa has been a priority 
for the State Department engagement on this issue. At the same 
time, we are concerned that there is not acknowledgement that 
there is an internal problem, and we do see a lot of 
philanthropic dollars going into the country that do not seem 
to be having the kind of impact that we would like to see in 
terms of stopping the problem.
    Mozambique has been a country of great concern. There is, 
we know, a petition pending with the Interior Department under 
the Pelley amendment to certify that country as a key transit 
point for rhino, which we believe deserves consideration given 
the need to crack down in that area.
    But in terms of South Africa, I think we just need to keep 
the pressure on and engage at the highest levels possible. I 
know Secretary Clinton was there when she was at the State 
Department a couple of years ago. Yet, the problem has 
worsened. And so we just need the support from the highest 
levels here to engage and press and get action.
    Senator Flake. Thank you.
    I will pose this to Mr. Saunders, but if the others can 
think about it as well. Part of the purpose of this hearing is 
this is oversight. We appropriate monies for Fish and Wildlife, 
AID, and some of these programs that you are talking about. Can 
you give us examples of--we have talked about programs, 
community-based programs, that have worked. What does not work? 
Can you give any examples of areas where our money could be 
better spent? And I know some of this changes over time where 
we focus more on trafficking one year. It may be better to 
focus more on funding game rangers the next year. And I 
understand some of that. But what areas have been proven not to 
be effective here?
    Mr. Saunders. I think that we are facing such a dynamic 
challenge. Where we are not effective is that we are not moving 
with the challenge, particularly from a wildlife security 
perspective. We have been sedentary in our approach for many 
years in Kenya and Tanzania, and being a former Tanzania 
wildlife officer, I can tell you that our approach to 
antipoaching started in the 1950s and it has not changed. The 
threat has changed. The dynamism has changed. So I think that 
is an area that we have to look at very closely.
    The way we can address that would be to look at creating a 
doctrine. I mean, we have a continent the size of Africa. We 
have many countries carrying out antipoaching operations and 
wildlife security. Yet, as far as I know, we have no doctrine 
for wildlife security, which in essence is conservation and 
counterinsurgency and a doctrine has to be monitored and 
updated continuously through academic stress testing and 
reports from the field. So I think that is an area that we have 
not been very successful at doing, and that is what our 
StabilCon philosophy wants to address through best practice. So 
that is what I would say would be--because this is such a 
complex matter, we could come up with 100,000 things, but that 
is one that I think I would like to identify.
    Senator Flake. And I do understand what works in Kenya may 
not work in Gabon.
    Mr. Saunders. Exactly.
    Senator Flake. And there is a change and different threats.
    But anybody else want to take a stab at that, looking at 
areas that we have over time realized it is not enough bang for 
the buck or it is just a misprioritization of funds? Anybody 
else? And I know you do not want to throw any member 
organizations under the bus and I am not trying to go there at 
all. But as part of our oversight role, that is one area that 
we want to focus on. If there are monies that are going 
somewhere that should be better spent, could be better spent 
elsewhere, then we want to know about it.
    Dr. Wittemyer. So one point I would point out would be the 
Tanzanian example, where the high-level officials in the 
Tanzania Government have been brought forward and lauded and 
awarded, despite no action on the ground taking place. USAID 
money is going in there to actually change their wildlife 
management scheme, their hunting based scheme, which 
desperately needs revamping. It is really imperative. But at 
the same time, as these actions to prop up and give coverage to 
governments and individuals occurs, it needs to be directly 
tied to and in recognition of successes.
    So one of the concerns with the Tanzanian Government 
example is that possibly they were given too much attention too 
early in the hope that that would help elicit action. In fact, 
it did not. And so we need to try the other side of really 
forcing them to take action. ``Force'' is the wrong word. 
Really encouraging them to take action before we award them for 
their lack of action.
    Senator Flake. Ms. Hemley.
    Ms. Hemley. I will just add one thing.
    We have seen a lot in the past support going toward 
capacity-building in the field, which is important, but what we 
think we need is really to take that up a level to increase the 
professionalization of the ranger corps, the wildlife rangers 
and the park rangers, in the field to upgrade their status 
within their countries, within their systems, help with 
training in that respect so that it is not just one-off 
capacity-building opportunities but really to help kind of 
upgrade the whole sector there, which is I think critical if 
you are going to have the kind of credible and supported and 
the capacities needed to really be effective at the level you 
need when you are dealing with organized crime and increasingly 
sophisticated poaching networks.
    Senator Flake. Thank you.
    Well, thank you. I just want to thank you again for the 
time that you have spent preparing. Like I said, I really 
enjoyed reading all the testimony and hearing it today and 
further explanations. This will be invaluable to us as we go 
ahead and make policy and consider the legislation that is 
before us. We hope that you will remain in touch. We will 
certainly keep the hearing record open for the next couple of 
days for other testimony.
    And just as a point of personal privilege, I just want to 
thank Mary Angelini who is here on our staff. She has been on 
loan from the State Department for the past several months, and 
this will be the last hearing that she will be able to put 
together. She is leaving, going back in a couple of weeks. And 
we just want her to know how much we appreciate her efforts.
    And thank you again and thank you, Ranking Member Markey, 
for your help here.
    And this meeting is adjourned.
    [Whereupon, at 3:30 p.m., the hearing was adjourned.]
                              
                              
                              ----------                              


              Additional Material Submitted for the Record


            Responses of Dr. George Wittemyer to Questions 
                     Submitted by Senator Tom Udall

    Question. With regards to demand. We have recently agreed to work 
with the Chinese to increase cooperation to combat wildlife trafficking 
and restrict trade in ivory.

  <diamond> In your opinion has China made significant progress to 
        address the illegal trade in ivory, and what more can be done--
        in your opinion--to decrease the demand in ivory in China and 
        throughout Asia?

    Answer. In respect to the question of if China has made significant 
progress to address the illegal trade in ivory, I would answer that 
progress has been significant in certain areas and woefully lacking in 
others.
    Chinese Government has made significant impacts by:
    (1) Closing ivory sales through public auctions (legislated and 
implemented in late 2011), which appears to have made a significant 
impact by reducing a critical avenue for laundering illegal ivory as 
legal ivory. Experts have also stated at the time, this was the primary 
means for marketing of ivory.
    (2) Law enforcement activities with numerous arrests of different 
individuals illegally importing ivory (primarily through airports) and 
selling ivory in illegal venues. Notably, however, all evidence 
suggests large-scale illegal ivory continues to flow into China despite 
these efforts, so they are not enough (see below).
    (3) We have seen positive movement from online venues in removing 
ivory from their market spaces (though I believe this is by private 
companies and may or may not be related to specific government 
actions).
    We have not seen significant efforts by the Chinese Government to 
address the following identified areas that drive illegal trade in 
ivory:
    (1) Ensuring government legal ivory markets are unable to launder 
illegal ivory. Widespread reporting of reusing and counterfeiting of 
official documents (those that identify legal ivory products) occurs in 
legal government market places. As such, the legal government markets 
are thought to be major distributors of illegal ivory. We have seen the 
occasional enforcement activity targeting these shops, but the problem 
continues to be prolific. Similarly, markets in Hong Kong are a major 
source of trafficking illegal ivory.
    (2) Illegal trafficking of ivory into China continues at pace. The 
Chinese Government is believed to have increased attempts to seize 
trafficked illegal ivory, but large volumes continue to enter via 
shipping containers. Recently, the large amount of illegal ivory being 
sold in Hong Kong and moved into mainland China has also been flagged 
as a major trafficking route. Little to no effort is put on screening 
for such products of individuals moving from Hong Kong to mainland 
China.
    (3) Chinese companies in Africa have been flagged as primary 
illegal wildlife product consumers. This is for ivory as well as a 
whole portfolio of items from other wildlife products to conflict 
minerals and timber. We would like to see much more concerted effort to 
penalize rogue companies and award companies that are putting stringent 
control measures in place.
    (4) Possibly most importantly is the disruption of criminal 
networks running smuggling syndicates which, in that, in some cases, 
are thought to extend deep into Africa, possibly managing on the ground 
poaching operations. This is a place where combined efforts of the 
United States and China, as well as other strategic partners, could 
bear fruit and make a huge impact.
    Finally, in respect to demand reduction, it is widely thought 
officially ending legal domestic ivory trade in China is the key to end 
the ivory crisis. At the moment, many in China see legal ivory sales 
through government shops as indicating that there is not a problem. 
Some perceive all the press on the ivory issue as another Western 
conspiracy to make China lose face internationally, with the legal 
ivory markets serving as evidence that consuming ivory is okay. Another 
key factor driving the Chinese ivory trade appears to be speculative 
investment in ivory as a limited commodity with robust appreciation, 
leading to hoarding of ivory. It is suspected that strongly curbing the 
ability to sell such ivory would have a massive impact on illegal ivory 
pricing. Again, this would be most effectively done through a domestic 
ivory ban in China.
    Reduction of demand in the West in the 1980s was driven by raising 
social consciousness of the cost of ivory trade to elephants. Efforts 
to do this in China are also important. Similar efforts in Japan have 
driven the consistent decline in the use of ivory products over the 
last 20-30 years. China is thought to require a similar approach, with 
sustained social campaigns slowly reducing the valuation of ivory over 
decades. This is to slow in terms of the elephant impacts we are 
witnessing now, but is important to sustain any immediate gains we make 
for the long term.

    Question. Dr. Wittemyer what do you think is the best case scenario 
for the remaining elephants? If the poaching were curbed today, what 
would it take to restore the elephant populations to healthy levels?

    Answer. If the poaching were curbed today, elephant populations 
will begin to rebound. We are already seeing this where we are having 
successes on the ground. In addition, the 1990-2000s demonstrated that 
given time and space, the elephants come back (e.g., doubling in Kenya 
over this time). And, given stability, tourism and other use models 
will develop to harness benefits from wildlife. However, this will 
depend on the will of the governments and communities in those areas. 
Lessons from the past suggest that with the shooting out of elephants 
and loss of potential wildlife revenue streams in areas, land uses in 
those places will shift to other economic activities. This will result 
in the permanent loss of current elephant range. The killing of 
elephants in the 1970-1980s likely resulted in range losses of 8 50 
percent. We will likely see that again, particularly given 
technological advances that enable agriculture in arid lands that were 
once thought only suitable for wildlife and livestock. Areas targeted 
for novel economic uses will likely never recover to their former 
wildlife oriented land uses and population densities. It is critical 
development projects (including those from USAID) work to protect 
wilderness areas, even where it takes time for elephant numbers to 
rebound.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
